APPENDIX

APPENDIX A:

Order Denying Rehearing,
United States Court of Appeals
for the Ninth Circuit,
No. 18-16012, June 3, 2020 ............. 1a

APPENDIX B:

Opinion, United States Court of
Appeals for the Ninth Circuit,
No. 18-16012, Mar. 31, 2020 ........... 2a

APPENDIX C:

Permanent Injunction and Final
Judgment & Order, United
States District Court for the
District of Arizona,
No. CV-14-2057, May 2, 2018....... 15a

APPENDIX D:

Findings of Fact, Conclusions of
Law, and Order, United States
District Court for the District of
Arizona, No. CV-14-2057,
Jan. 30, 2018 ................................... 25a

APPENDIX E:

Memorandum of Decision and
Order, United States District
Court for the District of Arizona,
No. CV-14-2057, Sept. 27, 2016 ... 57a

APPENDIX F:

Excerpts of Record filed in the
Ninth Circuit depicting VIP
Products dog toys ....................... 105a

APPENDIX G:

Statutory Provisions Involved .. 111a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VIP PRODUCTS LLC, an Arizona limited liability company, No. 18-16012

v.

Plaintiff-counter-defendD.C. No. 2:14-cvant-Appellant,
02057-SMM
District of Arizona,
Phoenix

JACK DANIEL’S PROPERTIES, INC., a Delaware
corporation,

ORDER

Defendant-counterplaintiff-Appellee.
Before: TASHIMA, HURWITZ, and MILLER, Circuit
Judges.
The panel has voted to deny the petition for panel
rehearing. Judges Hurwitz and Miller have voted to deny
the petition for rehearing en banc, and Judge Tashima so
recommends.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for panel rehearing and rehearing en
banc, Dkt. 63, is DENIED.

2a
APPENDIX B
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VIP PRODUCTS LLC, an Arizona limited liability company,
Plaintiff-CounterDefendant-Appellant,
v.

No. 18-16012
D.C. No.
2:14-cv-02057-SMM

JACK DANIEL’S PROPERTIES,
INC., a Delaware corporation,
Defendant-CounterPlaintiff-Appellee.

OPINION

Appeal from the United States District Court
for the District of Arizona
Stephen M. McNamee, District Judge, Presiding
Argued and Submitted February 7, 2020
Arizona State University, Phoenix
Filed March 31, 2020
Before: A. Wallace Tashima, Andrew D. Hurwitz, and
Eric D. Miller, Circuit Judges.
Opinion by Judge Hurwitz

3a
SUMMARY
Trademark
The panel affirmed in part, vacated in part, and reversed in part the district court’s judgment after a bench
trial and permanent injunction in favor of Jack Daniel’s
Properties, Inc., in a trademark suit brought by VIP Products, LLC, concerning VIP’s “Bad Spaniels Silly
Squeaker” dog toy, which resembled a bottle of Jack Daniel’s Old No. 7 Black Label Tennessee Whiskey but had
light-hearted, dog-related alterations.
The panel affirmed the district court’s summary judgment in favor of Jack Daniel’s on the issues of aesthetic
functionality and distinctiveness. The panel held that the
district court correctly found that Jack Daniel’s trade
dress and bottle design were distinctive and aesthetically
nonfunctional, and thus entitled to trademark protection.
Accordingly, the district court correctly rejected VIP’s request for cancellation of Jack Daniel’s registered
trademark. The district court also correctly rejected
VIP’s nominative fair use defense because, although the
Bad Spaniels toy resembled Jack Daniel’s trade dress and
bottle design, there were significant differences between
them, most notably the image of a spaniel and the phrases
on the Bad Spaniels label.
Vacating the district court’s judgment on trademark
infringement, the panel concluded that the Bad Spaniels
dog toy was an expressive work entitled to First Amendment protection. Accordingly, the district court erred in


This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

4a
finding trademark infringement without first requiring
Jack Daniel’s to satisfy at least one of the two prongs of
the Rogers test, which requires a plaintiff to show that the
defendant’s use of a mark is either (1) not artistically relevant to the underlying work or (2) explicitly misleads
consumers as to the source or content of the work.
The panel reversed the district court’s judgment on
claims of trademark dilution by tarnishment. Although
VIP used Jack Daniel’s trade dress and bottle design to
sell Bad Spaniels, they were also used to convey a humorous message, which was protected by the First
Amendment. VIP therefore was entitled to judgment in
its favor on the federal and state law dilution claims.
In summary, the panel affirmed the district court’s
summary judgment in favor of Jack Daniel’s on the issues
of aesthetic functionality and distinctiveness, affirmed the
judgment as to the validity of Jack Daniel’s registered
mark, reversed the judgment on the issue of dilution, vacated the judgment after trial on the issue of
infringement, and remanded for further proceedings. The
panel also vacated the permanent injunction prohibiting
VIP from manufacturing and selling the Bad Spaniels dog
toy.
COUNSEL
David G. Bray (argued), David N. Ferrucci, and Holly M.
Zoe, Dickinson Wright PLLC, Phoenix, Arizona, for
Plaintiff-Counter-Defendant-Appellant.
D. Peter Harvey (argued), Harvey & Company, San Francisco, California; Isaac S. Crum, Rusing Lopez & Lizardi
PLLC, Tucson, Arizona; for Defendant-Counter-PlaintiffAppellee.

5a
OPINION
HURWITZ, Circuit Judge:
VIP Products sells the “Bad Spaniels Silly Squeaker”
dog toy, which resembles a bottle of Jack Daniel’s Old No.
7 Black Label Tennessee Whiskey, but has light-hearted,
dog-related alterations. For example, the name “Jack
Daniel’s” is replaced with “Bad Spaniels,” “Old No. 7” with
“Old No. 2,” and alcohol content descriptions with “43%
POO BY VOL.” and “100% SMELLY.” After Jack Daniel’s Properties, Inc. (“JDPI”) demanded that VIP cease
selling the toy, VIP filed this action, seeking a declaration
that the toy did not infringe JDPI’s trademark rights or,
in the alternative, that Jack Daniel’s trade dress and bottle design were not entitled to trademark protection.
JDPI counterclaimed, asserting trademark infringement
and dilution. After ruling on cross-motions for summary
judgment and conducting a four-day bench trial, the district court found in favor of JDPI and issued a permanent
injunction enjoining VIP from manufacturing and selling
the Bad Spaniels toy.
We affirm the district court’s summary judgment in favor of JDPI on the issues of aesthetic functionality and
distinctiveness. However, because the Bad Spaniels dog
toy is an expressive work entitled to First Amendment
protection, we reverse the district court’s judgment on the
dilution claim, vacate the judgment on trademark infringement, and remand for further proceedings.
I
A. Factual Background
VIP designs, markets, and sells “Silly Squeakers,”
rubber dog toys that resemble the bottles of various well-

6a
known beverages, but with dog-related twists. One Silly
Squeaker, for example, resembles a Mountain Dew bottle,
but is labeled “Mountain Drool.” VIP’s purported goal in
creating Silly Squeakers was to “reflect” “on the humanization of the dog in our lives,” and to comment on
“corporations [that] take themselves very seriously.”
Over a million Silly Squeakers were sold from 2007 to
2017.
In July of 2013, VIP introduced the Bad Spaniels
squeaker toy. The toy is roughly in the shape of a Jack
Daniel’s bottle and has an image of a spaniel over the
words “Bad Spaniels.” The Jack Daniel’s label says, “Old
No. 7 Brand Tennessee Sour Mash Whiskey;” the label on
the Bad Spaniels toy instead has the phrase “the Old No.
2, on your Tennessee Carpet.” A tag affixed to the Bad
Spaniels toy states that the “product is not affiliated with
Jack Daniel Distillery.”
B. Procedural History
In 2014, JDPI “demand[ed] that VIP cease all further
sales of the Bad Spaniels toy.” VIP responded by filing
this action, seeking a declaration that the Bad Spaniels toy
“does not infringe or dilute any claimed trademark rights”
of JDPI and that Jack Daniel’s trade dress and bottle design are not entitled to trademark protection. The
complaint also sought cancellation of the Patent and
Trademark Office registration for Jack Daniel’s bottle design. JDPI counterclaimed, alleging state and federal
claims for infringement of JDPI’s trademarks and trade
dress, see 15 U.S.C. §§ 1114(1), 1125(a)(1); A.R.S. §§ 441451, et seq., and dilution by tarnishment of the trademarks and trade dress, see 15 U.S.C. § 1125(c); A.R.S.
§ 44-1448.01.

7a
VIP moved for summary judgment, and JDPI crossmoved for partial summary judgment. The district court
denied VIP’s motion and granted JDPI’s. The district
court held that VIP was not entitled to the defenses of
nominative and First Amendment fair use. The district
court rejected the nominative fair use defense because
VIP “did not use JDPI’s identical marks or trade dress in
its Bad Spaniels toy.” The district court rejected JDPI’s
First Amendment defense because the trade dress and
bottle design were used “to promote a somewhat non-expressive, commercial product.”
The district court also found as a matter of law that
Jack Daniel’s trade dress and bottle design were distinctive, non-generic, and nonfunctional, and therefore
entitled to trademark protection. This left for trial only
JDPI’s dilution by tarnishment claims and whether JDPI
could establish the likelihood of confusion for trademark
infringement. See Kendall-Jackson Winery, Ltd. v. E. &
J. Gallo Winery, 150 F.3d 1042, 1046-47 (9th Cir. 1998)
(“To state an infringement claim . . . a plaintiff must meet
three basic elements: (1) distinctiveness, (2) nonfunctionality, and (3) likelihood of confusion.”).
After a four-day bench trial, the district court found
that JDPI had established dilution by tarnishment and infringement of JDPI’s trademarks and trade dress. The
court permanently enjoined VIP “from sourcing, manufacturing, advertising, promoting, displaying, shipping,
importing, offering for sale, selling or distributing the Bad
Spaniels dog toy.”
II
We have jurisdiction of VIP’s appeal under 28 U.S.C.
§ 1291. We review the grant of summary judgment and

8a
the district court’s conclusions of law following a bench
trial de novo. See Lenz v. Universal Music Corp., 815 F.3d
1145, 1150 (9th Cir. 2016); Dolman v. Agee, 157 F.3d 708,
711 (9th Cir. 1998). The “district court’s findings of fact
following a bench trial are reviewed for clear error.” Id.
at 711.
A. Aesthetic Functionality and Distinctiveness
To obtain trademark protection, a product’s trade
dress or design must be nonfunctional and distinctive. See
Wal-Mart Stores, Inc. v. Samara Bros., Inc., 529 U.S. 205,
210 (2000); Talking Rain Beverage Co., Inc. v. S. Beach
Beverage Co., 349 F.3d 601, 603 (9th Cir. 2003). “[T]he
proper inquiry is not whether individual features of a
product are functional or nondistinctive but whether the
whole collection of features taken together are functional
or nondistinctive.” Kendall-Jackson Winery, 150 F.3d at
1050.
The district court correctly found Jack Daniel’s trade
dress and bottle design are distinctive and aesthetically
nonfunctional. Although whiskey companies use many of
the individual elements employed by JDPI on their bottles, the Jack Daniel’s trade dress “is a combination [of]
bottle and label elements,” including “the Jack Daniel’s
and Old No. 7 word marks,” and the district court correctly found that these elements taken together are both
nonfunctional and distinctive. See Tie Tech, Inc. v. Kinedyne Corp., 296 F.3d 778, 785 (9th Cir. 2002) (stating that
“‘an assurance that a particular entity made, sponsored,
or endorsed a product,’ . . . if incorporated into the product’s design by virtue of arbitrary embellishment” is not
functional (quoting Vuitton et Fils S.A. v. J. Young Enters., Inc., 644 F.2d 769, 774 (9th Cir. 1981))).

9a
VIP also failed to rebut the presumption of nonfunctionality and distinctiveness of the Jack Daniel’s bottle
design, which is covered by Trademark Registration No.
4,106,178. See Tie Tech, 296 F.3d at 783 (“[T]he plaintiff
in an infringement action with a registered mark is given
the prima facie or presumptive advantage on the issue of
validity, thus shifting the burden of production to the defendant to prove otherwise.”). None of the evidence cited
by VIP demonstrates that, “taken together,” the elements
of the bottle design registration—including “an embossed
signature design comprised of the word ‘JACK DANIEL’”—are functional or nondistinctive. The district
court therefore correctly rejected VIP’s request for cancellation of the registered mark.
B. Nominative Fair Use Defense
The district court also correctly rejected VIP’s nominative fair use defense. Although the Bad Spaniels toy
resembles JDPI’s trade dress and bottle design, there are
significant differences between them, most notably the
image of a spaniel and the phrases on the Bad Spaniels
label. These differences preclude a finding of nominative
fair use. See Playboy Enters., Inc. v. Welles, 279 F.3d 796,
801 (9th Cir. 2002); E.S.S. Entm’t 2000, Inc. v. Rock Star
Videos, Inc., 547 F.3d 1095, 1099 (9th Cir. 2008) (finding
nominative fair use defense did not apply where mark was
“not identical to the plaintiff’s” mark).
C. First Amendment Defense
“In general, claims of trademark infringement under
the Lanham Act are governed by a likelihood-of-confusion
test,” Twentieth Century Fox Television v. Empire Distribution, Inc., 875 F.3d 1192, 1196 (9th Cir. 2017), which
seeks to strike the appropriate balance between the First

10a
Amendment and trademark rights, see Gordon v. Drape
Creative, Inc., 909 F.3d 257, 264 (9th Cir. 2018). The likelihood-of-confusion test requires that the plaintiff have “a
valid, protectable trademark” and defendant’s “use of the
mark is likely to cause confusion.” S. Cal. Darts Ass’n v.
Zaffina, 762 F.3d 921, 929 (9th Cir. 2014) (quoting Applied
Info. Scis. Corp. v. eBAY, Inc., 511 F.3d 966, 969 (9th Cir.
2007)).
When “artistic expression is at issue,” however, the
general likelihood-of-confusion test “fails to account for
the full weight of the public’s interest in free expression.”
Gordon, 909 F.3d at 264 (quoting Mattel, Inc. v. MCA Records, 296 F.3d 894, 900 (9th Cir. 2002)). Accordingly, we
have held that the Lanham Act only applies to expressive
works if the plaintiff establishes one of the two requirements in the test set forth in Rogers v. Grimaldi, 875 F.2d
994 (2d Cir. 1989). See MCA Records, 296 F.3d at 902
(adopting Rogers test for use of a trademark in the title of
an expressive work); see also Gordon, 909 F.3d at 267 (noting that after MCA Records, this Court “extended the
Rogers test beyond a title”). Rogers requires the plaintiff
to show that the defendant’s use of the mark is either
(1) “not artistically relevant to the underlying work” or
(2) “explicitly misleads consumers as to the source or content of the work.” Gordon, 909 F.3d at 265.
In determining whether a work is expressive, we analyze whether the work is “communicating ideas or
expressing points of view.” MCA Records, 296 F.3d at 900
(quoting L.L. Bean, Inc. v. Drake Publishers, Inc., 811
F.2d 26, 29 (1st Cir. 1987)). A work need not be the “expressive equal of Anna Karenina or Citizen Kane” to
satisfy this requirement, Brown v. Elec. Arts, Inc., 724
F.3d 1235, 1241 (9th Cir. 2013), and is not rendered non-

11a
expressive simply because it is sold commercially, see
MCA Records, 296 F.3d at 906-07.
We recently had “little difficulty” concluding that
greeting cards, which combined the trademarked phrases
“Honey Badger Don’t Care” and “Honey Badger Don’t
Give a S - - -” alongside announcements of events such as
Halloween and a birthday, were “expressive works” entitled to First Amendment protection. Gordon, 909 F.3d at
261-63, 268. Even if the cards did not show great “creative
artistry,” they were protected under the First Amendment because the cards “convey[ed] a humorous message
through the juxtaposition of an event of some significance—a birthday, Halloween, an election—with the
honey badger’s aggressive assertion of apathy.” Id. at
268-69.
Like the greeting cards in Gordon, the Bad Spaniels
dog toy, although surely not the equivalent of the Mona
Lisa, is an expressive work. See Empire Distribution, 875
F.3d at 1196 (“We decide this legal question de novo.”).
The toy communicates a “humorous message,” see Gordon, 909 at 268-69, using word play to alter the serious
phrase that appears on a Jack Daniel’s bottle—“Old No. 7
Brand”—with a silly message—“The Old No. 2.” The effect is “a simple” message conveyed by “juxtaposing the
irreverent representation of the trademark with the idealized image created by the mark’s owner.” L.L. Bean, Inc.,
811 F.2d at 34 (affording First Amendment protection to
a message “that business and product images need not always be taken too seriously”). Unlike the book in Dr.
Seuss Enterprises, L.P. v. Penguin Books USA, Inc., 109
F.3d 1394 (9th Cir. 1997), which made “no effort to create
a transformative work with ‘new expression, meaning, or

12a
message,’” Bad Spaniels comments humorously on precisely those elements that Jack Daniels seeks to enforce
here. Id. at 1401 (quoting Campbell v. Acuff-Rose Music,
Inc., 510 U.S. 569, 578, 580 (1994)). The fact that VIP
chose to convey this humorous message through a dog toy
is irrelevant. See Hurley v. Irish-Am. Gay, Lesbian & Bisexual Grp. of Bos., 515 U.S. 557, 569 (1995)(“[T]he
Constitution looks beyond written or spoken words as mediums of expression.”).
The Fourth Circuit’s decision in Louis Vuitton
Malletier S.A. v. Haute Diggity Dog, LLC, 507 F.3d 252
(4th Cir. 2007), supports our conclusion. That opinion held
that dog toys which “loosely resemble[d]” small Louis
Vuitton handbags were “successful parodies of LVM
handbags and the LVM marks and trade dress” and therefore did not infringe the LVM trademark.1 Id. at 258, 260,
263. The Fourth Circuit reasoned that although “[t]he dog
toy is shaped roughly like a handbag; its name ‘Chewy
Vuiton’ sounds like and rhymes with LOUIS VUITTON;
its monogram CV mimics LVM’s LV mark; the repetitious
design clearly imitates the design on the LVM handbag;
and the coloring is similar,” “no one can doubt . . . that the
‘Chewy Vuiton’ dog toy is not the ‘idealized image’ of the
mark created by LVM.” Id. at 260. No different conclusion is possible here.
Because Bad Spaniels is an expressive work, the district court erred in finding trademark infringement
without first requiring JDPI to satisfy at least one of the
two Rogers prongs. See Gordon, 909 F.3d at 265; see also
The Fourth Circuit decision was based on likelihood of confusion,
not the First Amendment, see id. at 259-60, as it had not yet adopted
the Rogers test, see Radiance Found., Inc. v. NAACP, 786 F.3d 316,
329 (4th Cir. 2015) (later applying it).
1

13a
E.S.S. Entm’t 2000, 547 F.3d at 1101 (stating that “the
First Amendment defense applies equally to . . . state law
claims as to [a] Lanham Act claim”). We therefore vacate
the district court’s finding of infringement and remand for
a determination by that court in the first instance of
whether JDPI can satisfy a prong of the Rogers test.2
D. Trademark Dilution by Tarnishment
When the use of a mark is “noncommercial,” there can
be no dilution by tarnishment. 15 U.S.C. § 1125(c)(3)(C);
see A.R.S. § 44-1448.01(C)(2). Speech is noncommercial
“if it does more than propose a commercial transaction,”
Nissan Motor Co. v. Nissan Comput. Corp., 378 F.3d
1002, 1017 (9th Cir. 2004) (quoting MCA Records, 296 F.3d
at 906), and contains some “protected expression,” MCA
Records, 296 F.3d at 906. Thus, use of a mark may be
“noncommercial” even if used to “sell” a product. See Nissan Motor Co., 378 F.3d at 1017; MCA Records, 296 F.3d
at 906.
Although VIP used JDPI’s trade dress and bottle design to sell Bad Spaniels, they were also used to convey a
humorous message. That message, as set forth in Part
II.C above, is protected by the First Amendment. VIP
therefore was entitled to judgment in its favor on the federal and state law dilution claims. See Nissan Motor Co.,
378 F.3d at 1017; MCA Records, 296 F.3d at 906.

If the plaintiff satisfies one of the Rogers elements, “it still must
prove that its trademark has been infringed by showing that the defendant’s use of the mark is likely to cause confusion.” See Gordon,
909 F.3d at 265; see also Louis Vuitton Malletier, 507 F.3d at 260 (noting that the application of likelihood-of-confusion factors “depend[s]
to a great extent on whether its products and marks are successful
parodies”).
2

14a
III
We affirm the district court’s summary judgment in favor of JDPI on the issues of aesthetic functionality and
distinctiveness, affirm the judgment as to the validity of
JDPI’s registered mark, reverse the judgment on the issue of dilution, vacate the judgment after trial on the issue
of infringement, and remand for further proceedings. The
permanent injunction is vacated.3
AFFIRMED IN PART, REVERSED IN PART, VACATED IN PART, AND REMANDED. Each party to
bear its own costs.

Because we hold that VIP was entitled to judgment in its favor on
the trademark dilution claims and that the judgment in favor of VIP
on the infringement claims must be vacated, we do not address VIP’s
alternative challenges to these claims. And, because we vacate the
permanent injunction, we do not address VIP’s argument that the district court erred in not limiting the scope of the permanent injunction.
3

15a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF ARIZONA
VIP Products, LLC,
Plaintiff,

) No. CV-14-2057-PHX) SMM
)
vs.
)
)
PERMANENT
Jack Daniel’s Properties, ) INJUNCTION AND
Inc.,
) FINAL JUDGMENT &
Defendant,
)
ORDER
)
________________________ )
)
And Related Counterclaims.)
________________________ )
The Court held a four-day bench trial in this matter
from October 2, 2017 through October 5, 2017. Pursuant
to Rule 52(a) of the Federal Rules of Civil Procedure, the
Court, having heard the evidence and determined the
credibility of witnesses, entered its Findings of Fact, Conclusions of Law, and Order (“Order”) on January 30, 2018.
(Doc. 245.) The Court found in favor of Defendant Jack
Daniel’s Properties, Inc. (“Jack Daniel’s”) and against
Plaintiff VIP Products, LLC (“VIP”) on all remaining
claims, namely, Jack Daniel’s claims of trademark and
trade dress infringement and dilution by tarnishment.
(Id.) Based on VIP’s violations, the Court further determined that Jack Daniel’s was entitled to permanent
injunctive relief. (Id.) Consequently, the Court ordered

16a
Jack Daniel’s to submit a proposed permanent injunction,
to which VIP responded, and Jack Daniel’s replied in support. (Docs. 249, 251, 257.) Also pending before the Court
is VIP’s motion to stay permanent injunction pending appeal. (Doc. 252.) The briefing is complete. (Docs. 255,
256.)
I. Scope of Permanent Injunction
Injunctive relief “is historically designed to deter, not
punish[.]” Rondeau v. Mosinee Paper Corp., 422 U.S. 49,
62 (1975) (further citation omitted). “[A] district court
should only include injunctive terms that have a common
sense relationship to the needs of the specific case, and the
conduct for which a defendant has been held liable.” MGM
Studios, Inc. v. Grokster, Ltd., 518 F. Supp.2d 1197, 1226
(C.D. Cal. 2007) (citing NLRB v. Express Publ’g Co., 312
U.S. 426, 435 (1941)).
The Court will enjoin VIP from engaging in acts
“which are the same type and class as [the] unlawful acts
which the [C]ourt has found to have been committed” by
VIP. Express Publ’g, 312 U.S. at 435; see Rondeau, 422
U.S. at 62 (stating that injunctive relief was designed “to
permit the court to mould each decree to the necessities of
the particular case”) (further citation omitted). The permanent injunction entered against VIP is set forth in full
at the end of this Order. In summary,
II. Stay of Injunction Pending Appeal
Pursuant to Fed. R. Civ. P. 62(c) and Fed. R. App. P.
8(a)(C), the Court has discretion to grant a stay pending
appeal of the permanent injunction. Rule 62(c) provides
that “[w]hile an appeal is pending from an interlocutory
order or final judgment that grants, dissolves, or denies
an injunction, the court may suspend, modify, restore, or

17a
grant an injunction on terms for bond or other terms that
secure the opposing party’s rights.” Courts have cautioned that under these rules, a stay of a permanent
injunction pending appeal is a remedy granted sparingly.
See Adams v. Walter, 488 F.2d 1064, 1065 (7th Cir.1973);
United States v. Texas, 523 F. Supp. 703, 729 (E.D. Tex.
1981) (stating that since such an action interrupts the ordinary process of judicial review and postpones relief for
the prevailing party at trial, the stay of an equitable order
is a remedy granted sparingly).
The Supreme Court has identified four factors that
must be considered: “(1) whether the stay applicant has
made a strong showing that he is likely to succeed on the
merits; (2) whether the applicant will be irreparably injured absent a stay; (3) whether issuance of the stay will
substantially injure the other parties interested in the proceeding; and (4) where the public interest lies.” Hilton v.
Braunskill, 481 U.S. 770, 776 (1987). In its evaluation of
the factors required for issuance of a stay, the Ninth Circuit requires the moving party to show “both a probability
of success on the merits and the possibility of irreparable
injury.” Golden Gate Restaurant Ass’n v. City and County
of San Francisco, 512 F.3d 1112, 1116 (9th Cir. 2008) (emphasis added). The Ninth Circuit further requires that the
moving party demonstrate both that serious legal questions are raised and that the balance of hardships tips
sharply in its favor. Id.
Regarding the probability of success on the merits and
that serious legal questions are raised, the Court has
judged the credibility of the witnesses at trial, found the
facts, and has applied binding Ninth Circuit law to the issues of dilution by tarnishment, as well as trademark and
trade dress infringement, and found against VIP. See 15

18a
U.S.C. §§ 1114, 1125. “[T]he cry of ‘parody!’ does not magically fend off otherwise legitimate claims of trademark
infringement or dilution.” Dr. Seuss Enters., L.P. v. Penguin Books USA, Inc., 109 F.3d 1394, 1405 (9th Cir. 1997)
(further citation omitted). On appeal, the Court recognizes that the Ninth Circuit has the authority to
reconsider its position on some or all issues.
Regarding the possibility of irreparable injury, the
Court finds that VIP cannot make the required showing,
and thus is not entitled to a stay of the permanent injunction. Although VIP alleges that the Court’s permanent
injunction will cause it irreparable injury because the Order will cause the destruction of all the Bad Spaniel’s dog
toys, all computer-aided design and other electronic files,
and any molds from which the Bad Spaniel’s product has
been made, the Court’s permanent injunction does not so
order. The permanent injunction only requires VIP to
gather up and control these items, pending appeal, not destroy them.
Further, under Ninth Circuit precedent, because Jack
Daniel’s established a likelihood of confusion between its
trademarks/trade dress and VIP’s Bad Spaniel’s product,
it is presumed that Jack Daniel’s will suffer irreparable
harm if injunctive relief is not granted. See Vision Sports,
Inc. v. Melville Corp., 888 F.2d 609, 612 n.3 (9th Cir. 1989).
Here, the evidence at trial established that there was a
strong likelihood of confusion among the consuming public. Reliable survey evidence proved that over 29% of
consumers thought Jack Daniel’s made, sponsored or approved the “Bad Spaniels” dog toy.
Moreover, not only did Jack Daniel’s establish a likelihood of confusion between its trademarks/trade dress and

19a
VIP’s Bad Spaniel’s product, Jack Daniel’s also established that VIP’s Bad Spaniel’s product caused dilution by
tarnishment to Jack Daniel’s trademarks and trade dress.
Thus, the Court finds that VIP has not established that
it will suffer irreparable harm from an order enjoining
VIP’s sale of the “Bad Spaniels” toy, and the gather-up
process that must be undertaken, pending appeal.
Similarly, VIP has not established that the balance of
hardships tips sharply in its favor. In evaluating the balance of hardships the Court considers the impact the
permanent injunction will have on the respective enterprises. See International Jensen, Inc. v. Metrosound
U.S.A., Inc., 4 F.3d 819, 827 (9th Cir. 1993). VIP acknowledged at trial that the Bad Spaniel’s dog toy was not a big
seller. In contrast, as Dr. Itamar Simonson testified and
this Court found, by juxtaposing dog feces and defecation
against a consumable product like whiskey, the Bad Spaniel’s dog toy created negative mental associations in the
mind of consumers, thereby tarnishing the Jack Daniel’s
brand. The Court finds that the balance of hardship does
not tip sharply in favor of VIP; rather, the opposite is true.
Thus, VIP has not established that the Order enjoining
VIP’s sale of the “Bad Spaniels” toy, and the gathering-up
process that must be undertaken by VIP, tips the balance
of hardship sharply in its favor pending appeal.
Finally, when the Court considers the public interest,
the analysis for the issuance of an injunction requires consideration whether there exists some critical public
interest that would be injured by the grant of injunctive
relief. See Independent Living Ctr. of S. Cal., Inc. v. Maxwell-Jolly, 572 F.3d 644, 659 (9th Cir. 2009), vacated and
remanded on other grounds, Douglas v. Independent Living Ctr. of S. Cal., Inc., 565 U.S. 606 (2012). Regarding the

20a
likely public interest consequences of the injunction,
“[s]uch consequences must not be too remote, insubstantial, or speculative and must be supported by evidence.”
Stormans, Inc. v. Selecky, 586 F.3d 1109, 1139 (9th Cir.
2009).
Here, the public interest served by the permanent injunction is in the nature of preventing continued consumer
confusion and deception caused by the Bad Spaniel’s product.
Therefore, based on an evaluation of all the Hilton factors, VIP has failed to establish that it is entitled to a stay
of the permanent injunction pending appeal. The Ninth
Circuit requires the moving party to show “both a probability of success on the merits and the possibility of
irreparable injury.” Golden Gate Restaurant, 512 F.3d at
1116. There is no possibility of irreparable injury to VIP.
The Court’s permanent injunction will not destroy all the
Bad Spaniel’s dog toys, or the computer-aided design and
other electronic files, or the molds from which the Bad
Spaniel’s product has been made; the permanent injunction enjoins the sale of the infringing/tarnishing product
and only requires VIP to gather up and control the product, pending appeal, not destroy. Furthermore, VIP has
failed to establish that the balance of hardship tips sharply
in its favor or that the public interest favors VIP.
III. Injunction Bond on Appeal
Rule 62(c) provides authority for issuance of an injunction bond pending appeal, “on terms that secure the
opposing party’s rights.” Fed. R. Civ. P. 62(c). Federal
case law confirms that an injunction bond requirement has
several important purposes. First, an injunction bond
provides a fund for the compensation of an enjoined party

21a
who may suffer from an injunction not upheld on appeal.
See National Kidney Patients Assoc. v. Sullivan, 958 F.2d
1127, 1134 (D.C. Cir. 1991). As a rule, courts presume
damages against the bond if the injunction is not upheld.
See Hoxworth v. Blinder, Robinson & Co., 903 F.2d 186,
210 (3rd Cir. 1990). Secondly, the bond provides the injunction holder with notice of the maximum extent of its
potential liability since the amount of the bond is the limit
of the damages a party can obtain for an injunction not
upheld on appeal. See Continuum Co. v. Incepts, Inc., 873
F.2d 801, 803 (5th Cir.1989) (citing Buddy Systems, Inc. v.
Exer-Genie, Inc., 545 F.2d 1164, 1168 (9th Cir. 1976).
The Court’s permanent injunction enjoins the sale of
the infringing/tarnishing product and requires that VIP
gather up all remaining Bad Spaniel’s dog toys, all computer-aided design and other electronic files, and any
molds from which the Bad Spaniel’s product has been
made. Therefore, pursuant to Rule 62(c), the Court will
require that the injunction holder, Jack Daniel’s, establish
an injunction bond in the amount of $50,000.
IV. Conclusion
IT IS HEREBY ORDERED granting Defendant
Jack Daniel’s Properties Inc. a Permanent Injunction and
Final Judgment against Plaintiff VIP Products LLC.
Pursuant to Fed. R. Civ. P. 52(a), the Court heard the
evidence, determined the credibility of witnesses, and entered its Findings of Fact, Conclusions of Law, and Order.
The Court found in favor of Defendant Jack Daniel’s Properties, Inc. and against Plaintiff VIP Products, LLC on all
remaining claims, namely, Jack Daniel’s claims of trademark and trade dress infringement and dilution by

22a
tarnishment regarding VIP’s Bad Spaniels dog toy. Pursuant to Fed. R. Civ. P. 65(d), based on VIP’s violations,
the Court finds that Jack Daniel’s is entitled to permanent
injunctive relief, as follows:
1. VIP and its agents, servants, officers, directors,
owners, representatives, employees, successors, attorneys, assigns and all other persons in active concert or
participation with them, or any of them, who receive actual
notice of this injunction by personal service or otherwise,
are hereby PERMANENTLY ENJOINED, effective as
of the date of this Permanent Injunction and Final Judgment, from sourcing, manufacturing, advertising,
promoting, displaying, shipping, importing, offering for
sale, selling or distributing the Bad Spaniels dog toy, as
depicted below:

2. By Friday, June 22, 2018, VIP shall remove from
public viewing any and all catalogues, website pages, literature, brochures, business cards, promotional materials,
advertising, T-shirts, and any other goods, products and
materials depicting or bearing any other reference to
VIP’s Bad Spaniels product.
3. By Friday, June 22, 2018, VIP shall account to the
Court and to Jack Daniel’s as to the number of units and
the location of all remaining inventory of the Bad Spaniel’s
toy.

23a
4. By Friday, July 6, 2018, VIP shall, pursuant to 15
U.S.C. § 1118 and A.R.S. § 44-1451(B)(5), gather up and
control all of the remaining inventory of the Bad Spaniels
toys, together with all labels, signs, prints, packages,
wrappers, receptacles and advertisements bearing the
trade dress of the Bad Spaniels toy, and all plates, molds,
matrices and other means of making the same.
5. By Friday, July 6, 2018, VIP shall also gather up
and control from its supplier of the Bad Spaniels product
all computer-aided design and other electronic files and
any molds from which such products are made.
6. By Friday, July 20, 2018, VIP shall file with the
Court and serve on counsel for Jack Daniel’s a report, in
writing, under oath, setting forth in detail the manner and
form in which it has complied with this injunction pursuant
to 15 U.S.C. § 1116. Said report shall attest to the Court
and to Jack Daniel’s as to the details of the gathering up
and control process of the products and materials ordered
under paragraphs 4 and 5 hereof.
7. With the exception of any motion Jack Daniel’s
may elect to file for attorneys’ fees pursuant to Section 35
of the Lanham Act, 15 U.S.C. § 1117, and to any Bill of
Costs to be settled by the Clerk of Court, this Permanent
Injunction and Final Judgment shall finally conclude and
dispose of all claims and counterclaims in this action with
prejudice, and the Clerk of Court shall terminate this case.
8. The Court shall retain jurisdiction over this matter
to ensure that the terms and conditions of this Permanent
Injunction and Final Judgment are honored and enforced.
IT IS FURTHER ORDERED denying VIP Products
LLC’s motion to stay permanent injunction pending appeal. (Doc. 252.)

24a
IT IS FURTHER ORDERED setting a Fed. R. Civ.
P. 62(c) Injunction Bond pending appeal in the amount of
$50,000. By Friday, May 18, 2018, Jack Daniel’s shall post
the Injunction Bond with the Clerk of Court pending disposition of VIP’s proposed appeal of this matter with the
Ninth Circuit Court of Appeals.
IT IS FURTHER ORDERED denying as moot VIP
Products LLC’s motion for leave to reply in support of
Global Objection. (Doc. 258.)
DATED this 2nd day of May, 2018.
/s/Stephen M. McNamee
Stephen M. McNamee
Senior United States District Judge

25a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF ARIZONA
VIP Products, LLC,
Plaintiff,

) No. CV-14-2057-PHX) SMM
)
vs.
) FINDINGS OF FACT,
) CONCLUSIONS OF
Jack Daniel’s Properties, ) LAW, AND ORDER
Inc.,
)
Defendant,
)
)
________________________ )
)
And Related Counterclaims.)
________________________ )
In earlier proceedings, the Court resolved the parties’
cross-motions for summary judgment, denying Plaintiff’s
motion for summary judgment, and granting Defendant’s
motion for partial summary judgment. (Doc. 171.) The
remaining claims involve trademark and trade dress dilution under federal and state law, as well as trademark and
trade dress infringement under federal and state law.
(Id.)
The Court held a four-day bench trial beginning on October 2, 2017. Pursuant to Rule 52(a) of the Federal Rules
of Civil Procedure, having heard the evidence and determined the credibility of the witnesses, THE COURT

26a
NOW FINDS BY A PREPONDERANCE OF THE EVIDENCE THE FOLLOWING FACTS AND STATES
ITS CONCLUSIONS OF LAW.
The Court finds in favor of Defendant and against
Plaintiff on all remaining claims. Consequently, the Court
will grant Defendant’s requests and order permanent injunctive relief.
I.

PARTIES

1. Plaintiff VIP Products, LLC, (“VIP”) designs, manufactures, markets, and sells chew toys for dogs. VIP
sells various brands of dog chew toys, including the
“Tuffy’s” line (durable sewn/soft toys), the “Mighty” line
(durable toys made of a different material than the Tuffy’s
line), and the “Silly Squeakers” line (durable rubber
squeaky novelty toys). (Doc. 242 at 3.) VIP is an Arizona
limited liability company with its principal place of business in Phoenix, Arizona. (Docs. 49 ¶ 1; 204-1, Ex. A.)
President of VIP Steven Sacra and his wife are the principal owners of VIP. (Doc. 234 at 24.) Mr. Sacra is a
talented entrepreneur who developed the line of VIP dog
toys. (Id. at 30-37.) His talent and creativity often lead to
“of the moment” inspiration, such as toys Mr. Sacra believes are parodies of other companies’ products. (See,
e.g., Doc. 237 at 102.).
2. Defendant Jack Daniel’s Properties, Inc. (“Jack
Daniel’s”) is a Delaware corporation with its principal
place of business in San Rafael, California. (Docs. 1 ¶ 2,
15-1 ¶ 2.)

27a
II.

PRE-LITIGATION FACTUAL FINDINGS

3. Jack Daniel’s owns and licenses the trademarks and
trade dress used in connection with Jack Daniel’s products. (Docs. 105; 204-1, Ex. A.)
4. Jack Daniel’s Tennessee whiskey has been sold in
the United States continuously since at least 1875, except
during Prohibition. (Doc. 105; U.S. Trademark Reg. No.
42,663.)
5. Jack Daniel’s Tennessee whiskey has borne the
JACK DANIEL’S trademark and the OLD NO. 7 trademark since 1875. (Doc. 234 at 51-52 (discussing U.S.
Trademark Reg. Nos. 42,663, 582,789, and 1,923,981).)
Jack Daniel’s federal registrations of its trademarks and
trade dress for whiskey also includes Trademark Reg. No.
4,106,178 for the three-dimensional configuration of a
square shape bottle container. (Doc. 12 at 7.) Jack Daniel’s trade dress has included these trademarks for many
decades. (Doc. 234 at 55-56, 68.)
6. Jack Daniel’s has maintained an active brand licensing program for many years. (Docs. 105, Ex. 1; 234 at 6869; 111-113.)
7. Jack Daniel’s trademarks and trade dress have appeared on thousands of products other than whiskey,
including food, apparel, and a limited number of pet products. (Doc. 230-16 thru 231-7.) Jack Daniel’s offers
branded dog leashes, collars, and dog houses. (Docs. 234
at 113, 230-9 thru 230-12.) Jack Daniel’s has offered these
dog accessories since before the events giving rise to this
case. (Doc. 241 at 7.)
8. Initially launched in approximately 2007, VIP’s
Silly Squeakers line of dog toys includes a variety of toys

28a
in the shapes of beer, wine, soda, and liquor bottles. (Doc.
236 at 31-38.)
9. Mr. Sacra’s intent behind producing the Silly
Squeakers line of toys was to develop a creative parody on
existing products. (Id. at 45-47, 56.) Mr. Sacra provided
examples of this line of toys, including “Smella RCrotches” a parody of Stella Artois, “Heini Sniff’n” a parody of Heineken, and “Pissness” a parody of Guinness.
(Doc. 237 at 96-98.) According to Mr. Sacra, these parodies are just harmless, clean fun, and are not distasteful
or harmful. (Id. at 99.)
10. VIP created and marketed the “Bad Spaniels” silly
squeaker dog toy. (Doc. 158.) The “Bad Spaniels” toy is
in the shape of a liquor bottle and features a wide-eyed
spaniel over the words “Bad Spaniels”, “the Old No. 2, on
your Tennessee Carpet.” (Id.) At the bottom of the “Bad
Spaniels” toy, it reads: “43% POO BY VOL.” and “100%
SMELLY”. On the back of the Silly Squeakers label for
the “Bad Spaniels” toy, it states: “This product is not affiliated with Jack Daniel Distillery.” (Id.)
11. VIP’s intent behind designing the “Bad Spaniels”
toy was to match the bottle design for Jack Daniel’s Tennessee Sour Mash Whiskey (“Old No. 7 Brand”). (Doc.
157.) These design elements include the size and shape of
the product, the use of white lettering over a black background, and font styles.
12. Mr. Sacra originally coined the name “Bad Spaniels”, and then requested Designer Elle Phillips to work
on the proposed design. (Doc. 236 at 55-56.) Ms. Phillips
understood that “Bad Spaniels” was a reference to “Jack
Daniel’s.” (Doc. 233-1 at 47, 49-50.) Ms. Phillips was familiar with that brand and had consumed Jack Daniel’s

29a
Tennessee whiskey in bars and in her home. (Id. at 5253.)
13. Prior to starting the design for “Bad Spaniels,”
Ms. Phillips recalled various Jack Daniel’s packaging features from memory, including “[t]he black and white
label, sort of a cursive font for Tennessee, simple type,”
and the square shape of the bottle, as well as the use of a
number on the neck label. (Id. at 53-54.)
14. Ms. Phillips then retrieved a bottle from her liquor
cabinet, examined it, and placed it on her desk while she
developed a sketch. (Id. at 54-55, Docs. 104-1 at 101-02,
225-17.) She referenced the Jack Daniel’s bottle “every
now and then throughout the process.” (Doc. 233-1 at 6667.) Ms. Phillips wanted her sketch to be close to the same
as the Jack Daniel’s bottle. (Id. at 67.)
15. When finished, the “Bad Spaniels” product featured all the elements of the Jack Daniel’s Trade Dress,
including the bottle shape, color scheme, and trademark
stylization, as well as the word “Tennessee,” and the font
and other graphic elements. (Doc. 158.)
16. “Bad Spaniels” was introduced in 2014 and in the
VIP catalogs, the “Bad Spaniels” product appears in a bar
setting alongside various hanging bottles, one of which
can be recognized as a Jack Daniel’s bottle. (Docs. 227-7
and 227-8.)
III.

LITIGATION HISTORY

17. After VIP introduced “Bad Spaniels,” Jack Daniel’s promptly demanded that it stop selling the new toy.
(Doc. 47.) VIP responded by filing a complaint seeking a
declaratory judgment that “Bad Spaniels” did not infringe

30a
or dilute any trademark or trade dress rights owned by
Jack Daniel’s. (Doc. 49 at 9-11.)
18. Subsequently, the parties filed dispositive motions. (Docs. 101, 110.)
19. In ruling on the motions, the Court ruled in favor
of Jack Daniel’s and against VIP, rejecting VIP’s defenses
of nominative and First Amendment fair use, and that
VIP failed to rebut the validity of the Jack Daniel’s bottle
design registration. (Doc. 171.) In addition, the Court
found as a matter of law that Jack Daniel’s trade dress
and bottle design are distinctive, not generic, and that
they are nonfunctional. (Id.); see Kendall-Jackson Winery, Ltd. v. E. & J. Gallo Winery, 150 F.3d 1042, 1047 (9th
Cir. 1998) (stating that whether it be a trademark or a
trade dress claim, a plaintiff must meet three basic elements: (1) distinctiveness, (2) nonfunctionality, and
(3) likelihood of confusion).
20. The Court left for trial the remaining issues of
Jack Daniel’s claim for dilution by tarnishment and Jack
Daniel’s claim for infringement–the remaining issue of
likelihood of confusion. (Doc. 171.)
21. At this point in the litigation, VIP does not contest
the validity of Jack Daniel’s prior trademarks and trade
dress registrations. (Doc. 242 at 33.)
IV.

DILUTION BY TARNISHMENT

22. On October 6, 2006, the Trademark Dilution Revision Act of 2006 (the “TDRA”), was signed into law. See
Pub.L. 109-312, 120 Stat. 1730 (Oct. 6, 2006). The TDRA
defines dilution as follows:
Subject to the principles of equity, the
owner of a famous mark that is distinctive,

31a
inherently or through acquired distinctiveness, shall be entitled to an injunction
against another person who, at any time after the owner’s mark has become famous,
commences use of a mark or trade name in
commerce that is likely to cause dilution by
blurring or dilution by tarnishment of the
famous mark, regardless of the presence or
absence of actual or likely confusion, of competition, or of actual economic injury.
15 U.S.C. § 1125(c)(1) (establishing a likelihood of dilution
standard).
23. The phrase “likely to cause dilution” used in the
TDRA significantly changes the meaning of the law from
“causes actual harm” under the preexisting law to “likely”
or “likelihood” which means probably. See V Secret Catalogue, Inc. v. Moseley, 605 F.3d 382, 388 (6th Cir. 2010).
24. The TDRA further defines dilution by tarnishment, as follows:
“For purposes of [15 U.S.C.
§ 1125(c)(1)], ‘dilution by tarnishment’ is association arising from the similarity between a mark or trade name and
a famous mark that harms the reputation of the famous
mark.” 15 U.S.C. § 1125(c)(2)(C); Mattel, Inc. v. MCA
Records, Inc., 296 F.3d 894, 903 (9th Cir. 2002) (stating
that generally dilution “refers to the whittling away of the
value of a trademark when the mark is used to identify
different products.”) (further quotation and citation omitted).
25. To prove dilution by tarnishment under the
TDRA, Jack Daniel’s must prove that at least one of its
asserted trademark and trade dress rights was not only
valid but also famous before the accused use began, and

32a
that the accused use is likely to cause negative associations that harms the reputation of the famous mark. See
15 U.S.C. § 1125(c); A.R.S. § 44-1448.01; Jada Toys, Inc.
v. Mattel, Inc., 518 F.3d 628, 634 (9th Cir. 2008); Moab Industries, LLC v. FCA US, LLC, No. CV 12-8247, 2016
WL 5859700, *8 (D. Ariz. 2016) (stating that the “elements
necessary to prove [an Arizona] state law trademark dilution counterclaim are basically identical” to federal
trademark dilution claims).
(A) Fame
26. A trademark or trade dress is famous if “it is
widely recognized by the general consuming public of the
United States as a designation of source.” 15 U.S.C.
§ 1125(c)(2)(A). All relevant factors may be considered,
including: “the duration, extent, and geographic reach of
advertising and publicity of the mark”; “the amount, volume, and geographic extent of sales of goods or services
offered under the mark”; “the extent of actual recognition
of the mark”; “and whether the mark [has been] registered . . . on the principal register.” 15 U.S.C.
§ 1125(c)(2)(A)(i)-(iv); accord A.R.S. § 44-1448.01(A)(1-8).
27. Based on the relevant fame factors, 15 U.S.C.
§ 1125(c)(2)(A)(i)-(iv), advertising, sales, actual recognition, and prior registration, the Court finds that Jack
Daniel’s trademarks and trade dress are famous and were
famous before VIP introduced “Bad Spaniels” in July
2014.
28. Regarding advertising, Jack Daniel’s spent hundreds of millions of dollars to promote Jack Daniel’s
whiskey. (Docs. 234 at 55-56, 59-69, 80; see also Docs. 220,
Exs. 105-24; Doc. 229-5 thru 229-9, 229-13, and 229-16.)

33a
29. Regarding sales, Jack Daniel’s is the best-selling
whiskey in the United States since 1997, exceeding 75 million cases and 10 billion dollars in sales. (Doc. 234 at 4850.)
30. Regarding actual recognition, Jack Daniel’s trademarks have been used continuously for over a century,
except during Prohibition. (Doc. 234 at 49-52.) Jack Daniel’s trademarks and trade dress have been seen by
millions of Americans in movies, and television programs.
(Doc. 234 at 62-66, 68; Doc. 220, Exs. 107, 109-11, and 146.)
Jack Daniel’s is prominently featured at jackdaniels.com,
which was visited more than four million (4,000,000) times
during 2014. (Docs. 234 at 66; Docs. 220, Ex. 112, and 2298.) Jack Daniel’s trade dress is prominently featured on
social media pages for the brand. (Doc. 234 at 66, Doc.
229-9.) Based on Jack Daniel’s internal records, aided
consumer awareness of the Jack Daniel’s brand is consistently around 98%.1 (Doc. 234 at 50.)
31. Based on the foregoing, the Court finds that Jack
Daniel’s carried its burden of demonstrating that its
trademarks and trade dress were famous before VIP’s
“Bad Spaniels” use began in July 2014. Jack Daniel’s
trademark and trade dress were widely recognized by the
general consuming public of the United States in July
2014. Thus, Jack Daniel’s established its fame under both
the federal TDRA and Arizona state law, A.R.S. § 441448.01(A)(1-8).

Aided brand awareness measures the number of people who express knowledge of a brand or product when prompted (brand
recognition).
1

34a
(B) Similarity
32. Under the TDRA’s likelihood of dilution standard,
in order to establish similarity in a dilution by tarnishment case, a party must show only “similarity,” not
substantial similarity or nearly identical, between the famous mark and the accused mark. See Levi Strauss & Co.
v. Abercrombie & Fitch Trading Co., 633 F.3d 1158, 1159
(9th Cir. 2011) (stating that “the ‘identical or nearly identical’ standard did not survive Congress’s enactment of
the TDRA.”) Now a party only must show “similarity”
between the famous mark and the accused mark. Id. at
1171.
33. The factors under consideration for determining
similarity in a dilution by tarnishment case have not been
clearly defined. See Nordstrom, Inc. v. NoMoreRack Retail Grp., Inc., No. CV 12-1853, 2013 WL 1196948, at *11
(W.D. Wash. Mar. 25, 2013). To resolve the question of
similarity, the Court considers “the factors of appearance,
sound and meaning,” factors that are also relevant in evaluating infringement. See Nordstrom, 2013 WL 1196948,
at *11.
34. Here, VIP intended and produced a dog toy that
included and was similar to Jack Daniel’s trademarks and
trade dress. (Doc. 241 at 13-15.) VIP appropriated the
Jack Daniel’s trade dress in every aspect: “Jack Daniel’s”
became “Bad Spaniels,” “Old No. 7” became “Old No. 2,”
and “Tennessee whiskey” became “Tennessee carpet.”
Meanwhile, the square bottle shape, the nearly identical
size of the two products, the ribbed neck, arched lettering,
filigreed border, black-and-white color scheme, fonts,
shapes, and styles remain virtually unchanged. “With a

35a
single glance . . . one is immediately struck by their similarity.” GoTo.com, Inc. v. Walt Disney Co., 202 F.3d 1199,
1206 (9th Cir. 2000).
35. VIP does not contest similarity; rather, despite
some minor artistic variations, VIP concedes that it used
Jack Daniel’s trademarks and trade dress as a model for
its “Bad Spaniels” dog toy. (Doc. 242 at 31.)
36. Based on the foregoing, the Court finds that Jack
Daniel’s established the requisite similarity between
VIP’s “Bad Spaniels” and Jack Daniel’s trademark and
trade dress. Thus, the Court finds similarity between the
two products under both the federal TDRA and Arizona
state law, A.R.S. § 44-1448.01(A)(1-8).
(C) Reputational Harm
37. Finally, under the TDRA, the last factor focuses
on reputational harm, that is, whether associations from
VIP’s “Bad Spaniels” product “harms the reputation of
the famous mark,” Jack Daniel’s trademarks and trade
dress. See 15 U.S.C. § 1125(c)(2)(C).
38. Reputational harm “generally arises when the
plaintiff’s trademark is linked to products of shoddy quality, or is portrayed in an unwholesome or unsavory
context likely to evoke unflattering thoughts about the
owner’s product.” Tiffany (NJ) Inc. v. eBay, Inc., 600 F.3d
93, 111 (2d Cir. 2010) (quoting Deere & Co. v. MTD
Prods., Inc., 41 F.3d 39, 43 (2d Cir. 1994)). For example,
there is a strong consensus among courts across jurisdictions that a famous mark is tarnished when it is
semantically associated with a new mark that it is using to
sell sex-related products. See V Secret, 605 F.3d at 388
(citing cases in support).

36a
39. A trademark may also be tarnished if the mark
loses its ability to serve as a “wholesome identifier” of the
plaintiff’s product. Starbucks Corp. v. Wolfe’s Borough
Coffee, Inc., 588 F.3d 97, 110 (2d Cir. 2009) (citing Hormel
Foods Corp. v. Jim Henson Prods., Inc., 73 F.3d 497, 507
(2d Cir. 1996)). The Second Circuit found that the relevant inquiry is how the junior mark’s product affects the
positive impressions about the famous mark’s product,
and not whether a consumer simply associates a negative
sounding junior mark with the famous mark. Starbucks,
588 F.3d at 110.
40. Regarding reputational harm, both parties engaged experts.
The determination of an expert’s
credibility and the weight to be given expert testimony
and evidence is a matter within the discretion of the trier
of fact, which in a bench trial like the instant case, is a
matter for the Court. See Fox v. Dannenberg, 906 F.2d
1253, 1256 (8th Cir. 1990). This Court decides how much
weight to give the evidence and the testimony presented.
Id.
41. Jack Daniel’s engaged Dr. Itamar Simonson, a
Professor of Marketing at Stanford University. (Doc. 234
at 154-62.) Dr. Simonson, relying on consumer psychology research, concluded that VIP’s introduction of “Bad
Spaniels” into the marketplace resulted in Jack Daniel’s
trademarks and trade dress being diluted by tarnishment.
(Id. at 162-74.)
42. VIP engaged Mr. Bruce Silverman, an advertising,
marketing, and branding consultant for the past 40-50
years, to rebut the opinion of Dr. Simonson and his findings. (Doc. 238 at 9-31.)

37a
Dr. Itamar Simonson, Credentials and Findings
43. Dr. Simonson has served as an expert witness on
numerous occasions, providing testimony on issues related to marketing, consumer behavior, trademarkrelated matters, false advertising, and branding. (Doc.
234 at 161.)
44. Dr. Simonson has conducted, supervised, or evaluated over one thousand marketing research studies. (Id.
at 155-59, 61-62.) Such studies related to consumer behavior, consumer information processing, brand equity,
trademarks, branding, marketing strategies, and advertising. (Id.)
45. Dr. Simonson’s opinions here are supported by
empirical studies in which there are two stages to establish a likelihood of dilution by tarnishment. (Id. at 162-63.)
One, whether the allegedly diluting product will bring to
mind or call to mind the allegedly diluted mark, and two,
assuming that the allegedly diluting product does call to
mind the allegedly diluted mark, has it affected the brand
equity and brand association of the allegedly diluted
mark. (Id.)
46. The first stage was satisfied because the whole
point of VIP’s product was to bring “Jack Daniel’s Old No.
7 to mind.” (Id. at 163.)
47. Consumer psychology research utilized to evaluate the second stage was based on numerous empirical
studies: The Court credits that the studies relied upon by
Dr. Simonson support certain conclusions that apply to all
products and services regarding the impact of adding a
negative association onto the association of the existing
brand. (Id.)

38a
48. The Associative Network Model has been empirically tested and verified numerous times since the 1970’s.
(Id. at 164-66.) Regarding application of the Associative
Network Model, the Court credits Dr. Simonson that
when consumers are evaluating brands certain mental associations come to mind. (Id. at 164.)
49. In accordance with the Associative Network
Model and based upon Dr. Simonson’s review of Jack
Daniel’s commercials and advertisements, his understanding about the Jack Daniel’s brand, and the key
messages Jack Daniel’s communicates regarding its
brand values (namely authenticity, integrity, independence, loyalty), the Court credits Dr. Simonson’s testimony
of documented positive mental associations that come to
mind when evaluating Jack Daniel’s before VIP introduced the “Bad Spaniels” dog toy. (Doc. 234 at 169-70.)
50. Based upon the Associative Network Model, the
Court credits Dr. Simonson’s conclusion regarding the effects of “Bad Spaniels” and the negative mental
associations that come to mind when you include defecation, feces, and poo upon consumers who are evaluating
Jack Daniel’s whiskey. (Id. at 170-72.)
51. Dr. Simonson relied on consumer psychology research to establish that when you associate any food or
beverage with defecation, you are creating disgust in the
mind of the consumer with respect to that food or beverage associated with defecation. (Id. at 172-74, 180.) Well
documented empirical research supports that the negative associations of “Old No. 2” defecation and “poo by
weight” creates disgust in the mind of the consumer when
the consumer is evaluating Jack Daniel’s whiskey. (Id. at
171-72.)

39a
52. Dr. Simonson relied on consumer psychology research in his evaluation of the second phase regarding
likelihood of dilution by tarnishment. (Id.)
53. Based on the Associative Network Model, the
Court credits Dr. Simonson that the “Bad Spaniels” product is likely to tarnish the Jack Daniel’s trademarks and
trade dress by creating negative associations, either consciously or unconsciously, and undermining the preexisting positive associations with its whiskey (“Old No. 2
on your Tennessee carpet”). (Doc. 234 at 172-74, 220.)
54. The Court credits Dr. Simonson’s conclusion that
such negative associations are particularly harmful for a
company such as Jack Daniel’s because the goods it offers
for sale involves human consumption and human consumption and canine excrement do not mix. (Id. at 17274.) Further, because Jack Daniel’s brand name along
with its equity is a very important asset. (Id. at 160.)
Mr. Bruce Silverman, Credentials and Findings
55. VIP engaged its own expert, Bruce Silverman, to
rebut the opinion of Dr. Simonson and his findings. (Doc.
238 at 31.) Mr. Bruce Silverman has been an advertising,
marketing, and branding consultant for the past 40-50
years. (Id. at 9-31.) He has worked with companies that
manufacture or produce goods and services, as well as his
main work with advertising and public relations agencies.
(Id.)
56. In West Los Angeles, Mr. Silverman arranged
four focus groups2 to test consumer reactions to “Bad
Focus groups are a research method whereby consumers from a
target market are led through a discussion regarding a particular
topic and give insight as to why and how consumers use a product or
service, what is important to them in choosing a particular brand,
2

40a
Spaniels” which according to Mr. Silverman had an overall favorable impression of Jack Daniel’s upon discussing
the “Bad Spaniels” dog toy. (Id. at 44-50.)
57. Mr. Silverman’s reliance on the West Los Angeles
focus groups is flawed because the groups were initially
directed by the moderator that the product under evaluation, “Bad Spaniels”, was a joke, a spoof product, and as a
result the focus groups produced predetermined results.
(Doc. 234 at 181, 183.) This tainted the group’s conclusions. Moreover, Mr. Silverman did not have expertise or
specialized knowledge in trademark dilution matters; rather, his experience was in advertising. (Id. at 208.)
58. Finally, Jack Daniel’s trademarks and trade dress
are tarnished by associating them with toys, particularly
the kind of toys that might appeal to children. (Doc. 238
at 96-97, 110-11.) The Court finds that while an association with toys may not ordinarily cause reputational harm,
Jack Daniel’s is in the whiskey business, and does not
market to children, does not license goods for children,
and does not license goods that might appeal to children.
(Id.)
59. Here, the Court credits and gives prevailing
weight to Dr. Simonson’s specialized knowledge and specific expertise in consumer psychology to evaluate and
conclude a likelihood of dilution by tarnishment regarding
the effect of the “Bad Spaniels” dog toy upon the Jack
Daniel’s trademarks and trade dress. (Doc. 234 at 172-74,
184-87; see Eastman Kodak Co. v. Rakow, 739 F. Supp.
116, 118 (W.D.N.Y. 1989) (stating that it does not matter
whether this association is humorous or intended as such
what they like and don’t like about various products or services, and
any special needs they might have that aren’t being satisfied.

41a
and enjoining use of the stage name KODAK by a standup comedian); Grey v. Campbell Soup Co., 650 F. Supp.
1166, 1175 (C.D. Cal. 1986) (enjoining use of DOGIVA and
CATIVA as harmful to Campbell’s GODIVA business
reputation because of the negative association the public
makes between Godiva’s premium quality food products
and animal treats); Steinway & Sons v. Robert Demars &
Friends et al., 210 U.S.P.Q. 954 (C.D. Cal. 1981) (enjoining
sale of clip-on beverage can handles under the name
STEIN-WAY, finding that such association will inevitably
tarnish Steinway’s reputation and image with the public
as sponsoring only products of taste, quality and distinction); see generally Chemical Corp. of Am. v. Anheuser–
Busch, Inc., 306 F.2d 433, 436-38 (5th Cir. 1962) (enjoining
use of “Where there’s life ... there’s bugs!” slogan); Original Appalachian Artworks, Inc. v. Topps Chewing Gum,
Inc., 642 F. Supp. 1031, 1039 (N.D. Ga. 1986) (tarnishment
“occurs when a defendant uses the same or similar marks
in a way that creates an undesirable, unwholesome, or unsavory mental association with the plaintiff’s mark”).
60. Accordingly, Dr. Simonson established that, the
“Bad Spaniels” product is likely to tarnish the Jack Daniel’s trademarks and trade dress by creating negative
associations, either consciously or unconsciously, and undermining the pre-existing positive associations with its
whiskey (“Old No. 2 on your Tennessee carpet”). (Doc.
234 at 172-74, 220.) This negative association is particularly harmful for a company such as Jack Daniel’s because
the goods it offers for sale involves human consumption
and human consumption and canine excrement do not
mix. (Id. at 172-74.)
61. The Court further finds that dilution by tarnishment will occur due to Jack Daniel’s trademarks and trade

42a
dress being associated with toys, particularly the kind of
toys that might appeal to children; Jack Daniel’s is in the
whiskey business and its reputation will be harmed due to
the negative mental association of evoking whiskey with
children, something Jack Daniel’s has never done. (Id. at
96-97, 110-11.)
62. Thus, under the federal TDRA and Arizona state
law, A.R.S. § 44-1448.01(A)(1-8), Jack Daniel’s has established the requisite reputational harm to its trademarks
and trade dress as a result of VIP’s creation and introduction of “Bad Spaniels” into the pet toy market.
(D) Conclusion–Dilution by Tarnishment
63. The Court finds that Jack Daniel’s established by
a preponderance of the evidence all the requisite elements
for dilution by tarnishment: fame, similarity, and reputational harm, caused by VIP’s “Bad Spaniels” against Jack
Daniel’s trademark and trade dress under both the federal TDRA and Arizona state law, A.R.S. § 441448.01(A)(1-8).
V.

TRADEMARK/TRADE DRESS INFRINGEMENT

64. Whether a trademark or trade dress claim, Jack
Daniel’s must meet three elements in order to establish
infringement: (1) distinctiveness; (2) nonfunctionality,
and (3) the likeliness of confusion. See Kendall-Jackson,
150 F.3d at 1047.
65. This Court previously ruled as a matter of law that
Jack Daniel’s trademarks and trade dress are distinctive
and nonfunctional. The issue remaining at trial is likelihood of consumer confusion. (Doc. 171.)

43a
66. To prevail on its trademark and trade dress infringement claims under federal and state law, Jack
Daniel’s must show ownership, meaning that at least one
of its asserted rights was valid before VIP’s alleged infringing use began, and VIP’s use caused a “likelihood of
confusion.” See 15 U.S.C. §§ 1114, 1125(a); Brookfield
Commc’ns v. West Coast Entm’t Corp., 174 F.3d 1036,
1046 n.8 (9th Cir. 1999); Kendall-Jackson, 150 F.3d at
1047; Angel’s Gate Inc. v. All-Star Grand Canyon Tours
Inc., No. CV 12-8181, 2013 WL 12114580, *2 (D. Ariz.
2013) (“Because Arizona’s trademark infringement statute mirrors the Lanham Act, 15 U.S.C. § 1125(a), cases
interpreting the Lanham Act guide the interpretation of
A.R.S. § 44-1451.”)
67. Here, the Court found that Jack Daniel’s asserted
rights are senior and valid because they have appeared on
the Principal Register of the United States Patent and
Trademark Office since before VIP’s use began. (See
Docs. 224-25); 15 U.S.C. §§ 1057(b), 1115(a); see
Brookfield, 174 F.3d at 1047. Furthermore, all the asserted rights are conclusively senior and valid pursuant to
the provisions of 15 U.S.C. § 1065.
68. At issue is whether VIP’s “Bad Spaniels” product
caused a “likelihood of confusion” about the source of the
product. Pursuant to AMF Inc. v. Sleekcraft Boats, 599
F.2d 341, 348 (9th Cir. 1979), in the Ninth Circuit “likelihood of confusion” is assessed by weighing the following
eight non-exclusive factors, often referred to as the Sleekcraft factors: the strength of the plaintiff’s mark; the
proximity or relatedness of the goods; the similarity of the
parties’ marks; evidence of actual confusion; marketing
channels used; the type of goods and degree of care likely
to be exercised by the buyer; the defendant’s intent in

44a
adopting the junior mark; and likelihood of expansion of
the parties’ product lines. Id.
69. “The Sleekcraft factors are intended as an adaptable proxy for consumer confusion, not a rote checklist.”
Network Automation, Inc. v. Advanced Sys. Concepts, 638
F.3d 1137, 1145 (9th Cir. 2011). “Some factors are much
more important than others, and the relative importance
of each individual factor will be case-specific.” Brookfield,
174 F.3d at 1054.
70. In some cases, a small number of the factors carry
great weight in assessing the likelihood of confusion. See
Dreamwerks Prod. Group, Inc. v. SKG Studio, 142 F.3d
1127, 1129 (9th Cir. 1998) (stating that “[t]he [Sleekcraft]
factors should not be rigidly weighed; we do not count
beans.”). “Rather, the factors are intended to guide the
court in assessing the basic question of likelihood of confusion.” Id. (internal citation omitted).
71. Utilizing the Sleekcraft factors, likelihood of consumer confusion may be established by (1) forward
confusion or (2) reverse confusion. See JL Beverage Co.,
LLC v. Jim Beam Brands Co., 828 F.3d 1098, 1106 (9th
Cir. 2016). “Forward confusion occurs when consumers
believe that goods bearing the junior mark came from, or
were sponsored by, the senior mark holder.” Id. (further
citation omitted). Reverse confusion, on the other hand,
“occurs when consumers dealing with the senior mark
holder believe that they are doing business with the junior
one.” Id.
(A) Actual Confusion
72. Regarding proof of actual confusion, in the Ninth
Circuit, proof of “actual confusion is not necessary to a
finding of likelihood of confusion.” Academy of Motion

45a
Picture Arts and Sciences v. Creative House Promotions,
Inc., 944 F.2d 1446, 1456 (9th Cir. 1991); accord, Sleekcraft, 599 F.2d at 353.
73. Instances of actual confusion in the marketplace
are often difficult to find, particularly where, as here, the
sales volume of the accused product is small and the marketing is thin. “[D]ifficulties in gathering [such] evidence
of actual confusion makes its absence generally unnoteworthy.” Au-Tomotive Gold, Inc. v. Volkswagen of
America, Inc., 457 F.3d 1062, 1077 (9th Cir. 2006) (“In this
case, which involves a national market and a low degree of
consumer care, nothing suggests that the lack of evidence
of confusion should be particularly noteworthy.”).
74. “[T]he cry of ‘parody!’ does not magically fend off
otherwise legitimate claims of trademark infringement or
dilution.” Dr. Seuss Enters., L.P. v. Penguin Books USA,
Inc., 109 F.3d 1394, 1405 (9th Cir. 1997) (further citation
omitted).
75. In lieu of marketplace evidence of actual confusion,
courts regularly accept the results of properly-designed
consumer surveys as surrogate evidence of actual confusion. See Playboy Enter., Inc. v. Netscape Commc’n
Corp., 354 F.3d 1020, 1026 n.28 (9th Cir. 2004) (stating that
“[s]urveys are commonly introduced as probative evidence of actual confusion.”)
76. Both parties engaged experts on the issue of likelihood of confusion and both experts testified via
deposition. (Docs. 233-2 (Ford) and 233-3 (Nowlis).)
77. Jack Daniel’s engaged the late Dr. Gerald Ford to
conduct a likelihood of confusion survey regarding the two
products, the Jack Daniel’s Tennessee whiskey bottle,

46a
with its trademarks and trade dress, and VIP’s “Bad
Spaniels” product. (Doc. 233-2 at 18-19.)
78. VIP engaged Dr. Stephen Nowlis to rebut the likelihood of confusion survey conducted by Dr. Ford. (Doc.
233-3.)
Dr. Gerald Ford, Credentials and Findings
79. Until his death in 2015, Dr. Ford was engaged in
commercial marketing research and consulting for 40
years. (Doc. 230-3 at 2.) Over the past 40 years, Dr. Ford
has been qualified and accepted as an expert in marketing
and marketing research in more than 60 trials before federal and state courts and administrative government
agencies, including the Trademark Trial and Appeal
Board. (Id. at 33-35.)
80. Dr. Ford was retained by a variety of firms. (Id.)
Approximately one-half of his engagements involved the
design and execution of marketing research surveys. (Id.)
Dr. Ford designed and executed surveys relating to intellectual property matters, including trademark, false
advertising, patent, and other related matters. (Id.) Dr.
Ford was familiar with accepted principles of survey research, as well as the tests for trustworthiness of properly
conducted surveys or polls. (Id.)
81. In this matter, Dr. Ford designed an internet survey to measure whether the “Bad Spaniels” product is
likely to confuse consumers. (Id. at 3.) Dr. Ford’s internet
survey utilized the Ever-Ready3 survey format, described
See Union Carbide Corp. v. Ever-Ready, Inc., 531 F.2d 366, 382
(7th Cir. 1976); J. McCarthy, McCarthy on Trademarks and Unfair
Competition, § 32:174 (4th ed. 2017)(“McCarthy”) (stating that the
Ever-Ready survey format has become a widely accepted format for
likelihood of confusion surveys).
3

47a
as the prevailing standard when conducting a likelihood of
confusion survey. (Doc. 235 at 7-8.)
82. Dr. Ford conducted a double-blind survey, meaning that not only is the interviewer unaware of the purpose
of the survey, the interviewing firm is also unaware, and
also the supervisor who instructs the interviewers is unaware of the purpose or the sponsor of the survey. (Id. at
8, Doc. 230-3 at 6.) In addition, the responding consumers
were not informed that this was being done for this or that
company. (Doc. 230-3 at 6.) Dr. Ford’s designed internet
survey. (Id.)
83. The stimuli Dr. Ford utilized in his survey’s test
cell were photographs of VIP’s “Bad Spaniels” dog toy.
(Doc. 230-3 at 4.) The stimuli Dr. Ford utilized in his survey’s control cell were photographs of a fictitious dog toy
bearing the “Bad Spaniels” name, with none of the claimed
Jack Daniel’s indicia or trade dress. (Id.)
84. After viewing these photographs, all responding
consumers were asked a series of open-ended and nonleading questions about who had made, sponsored, or approved the product pictured. (Id. at 13-18.)
85. In the results of Dr. Ford’s survey, over 29% of
those in the test cell—who had been shown the “Bad Spaniels” product—identified Jack Daniel’s in response as to
who had made, sponsored, or approved the product pictured. (Id. at 19-30.) By contrast, almost none of those in
the control cell—who had been shown the fictitious dog
toy—identified Jack Daniel’s in response to these questions. (Id. at 31.)
86. The Court credits and gives prevailing weight to
Dr. Ford’s conclusion that “approximately twenty-nine

48a
percent . . . of potential purchasers . . . are likely to be confused or deceived by the belief that Plaintiff’s Bad
Spaniels dog toy is made or put out by Jack Daniel’s, or
made or put out with the authorization or approval of Jack
Daniel’s, or that whoever makes or puts out Plaintiff’s dog
toy has a business affiliation or business connection with
Jack Daniel’s, and that such confusion is due in particular
to Plaintiff’s use of Jack Daniel’s indicia or trade dress on
the Bad Spaniels dog toy.” (Id. at 4, 33.)
87. The Court credits that Dr. Ford’s survey establishes likelihood of confusion in this case. The survey
followed the Ever-Ready format, considered the prevailing standard for trademark survey research in cases
involving strong marks. See E&J Gallo v. Proximo Spirits, Inc., No. CV 10-411, 2012 WL 273076, at *5 (E.D. Cal.
Jan. 30, 2012); accord McCarthy, § 32:174 (stating that the
Ever-Ready survey format has become a standard and
widely-accepted format).
88. Dr. Ford’s survey results that 29% of potential
purchasers were likely confused is nearly double the
threshold to show infringement. (Doc. 230-3 at 19-30); see
McCarthy, § 32:188 n.4 (collecting cases); Novartis Consumer Health, Inc. v. Johnson & Johnson-Merck
Consumer Pharmaceuticals Co., 290 F.3d 578, 594 (3d Cir.
2002) (“15%confusion is sufficient to demonstrate actual
confusion”); James Burroughs Ltd. v. Sign of the Beefeater, Inc., 540 F.2d 266, 276 (7th Cir. 1976) (15%
confusion “evidences a likelihood of confusion.”).
Dr. Stephen Nowlis, Credentials and Findings
89. VIP hired Dr. Stephen Nowlis to prepare an expert rebuttal report regarding the likelihood of confusion
survey conducted by Dr. Ford. (Doc. 128, and admitted at

49a
trial as Ex. 256, Doc. 221 at 5.) Dr. Nowlis holds a Ph.D.
in Marketing and a Master’s degree in Business Administration (MBA) from the University of California at
Berkeley. (Doc. 128.)
90. Although Dr. Nowlis objected to Dr. Ford’s control
stimulus, Dr. Nowlis did not support this view by conducting a survey or by conducting independent research; he
simply couched his opinion regarding lack of confusion
through generalized objections to Dr. Ford’s report.
91. Therefore, the Court does not credit Dr. Nowlis’s
generalized objections. Moreover, the Court finds that
Dr. Nowlis has never written any articles on trademark
surveys, or trademark survey design, or on the issue of
likelihood of confusion in trademark law which undercuts
his opinions. (Doc. 233-3 at 14.)
92. The Court rejects VIP’s assertion that Jack Daniel’s was somehow obligated to establish actual confusion
which Sleekcraft does not require. (Doc. 242 at 26.)
93. VIP did not commission or disclose a survey of its
own.
94. Based on the foregoing, the actual confusion factor
strongly favors Jack Daniel’s.
(B) VIP’s Intent
95. It is undisputed that in designing and marketing
“Bad Spaniels,” VIP’s intent was to copy the Jack Daniel’s
trademarks and trade dress for the purpose of parody.
(Doc. 233-1 at 56-57, 62, 66-67; Doc. 242 at 29.)
96. VIP’s intent was to capitalize on Jack Daniel’s
goodwill.

50a
97. Dr. Ford’s survey establishes a very high rate of
consumer confusion regarding the source of the products.
98. Thus, the intent factor favors Jack Daniel’s.
(C) Parody
99. A defendant’s claim of parody will be disregarded
where the purpose of the similarity is to capitalize on a famous mark’s popularity for the defendant’s own
commercial use. See Grey, 650 F. Supp. at 1175.
100. Here, VIP’s intent was clear that it sought to capitalize on Jack Daniel’s popularity and good will for its own
gain, and therefore its claim of parody is disregarded.
(D) Similarity
101. Regarding the factor of similarity between the
two marks, “[t]he greater the similarity between the two
marks . . . the greater the likelihood of confusion.”
GoTo.com, 202 F.3d at 1206. For a similarity evaluation,
the marks must be considered in their entirety and as they
appear in the marketplace; second, similarity is analyzed
in terms of appearance, sound, and meaning; and third,
the similarities between the products are weighed more
heavily than differences. Id. (citation and quotation omitted).
102. Considering a mark in its entirety and how it appears in the marketplace requires consideration of the
mark as a parody product. A junior mark must “conjure
up the original . . . for there to be a parody at all.” Tommy
Hilfiger Licensing v. Nature Labs, 221 F. Supp. 2d 410,
417 (S.D.N.Y. 2002).
103. Here, VIP intended to produce a dog toy that included and was similar to Jack Daniel’s trademarks and
trade dress so that its “Bad Spaniels” dog toy would call

51a
to mind Jack Daniel’s Tennessee whiskey. VIP appropriated the Jack Daniel’s Trade Dress in every aspect: “Jack
Daniel’s” became “Bad Spaniels,” “Old No. 7” became
“Old No. 2,” “Tennessee whiskey” became “Tennessee
carpet.” Meanwhile, the square bottle size and shape,
ribbed neck, arched lettering, filigreed border, black-andwhite color scheme, fonts, shapes, and styles remain virtually unchanged.
104. Various retailers that sell Jack Daniel’s licensed
merchandise also sell VIP’s “Bad Spaniels” product, including Walmart, Amazon.com, and Boozingear.com.
(Doc. 237 at 135-37, 231-19, 231-21.)
105. VIP cannot dispel confusion with a disclaimer,
particularly a disclaimer in tiny font on the reverse side of
its product packaging. See E. & J. Gallo Winery v. Gallo
Cattle Co., 967 F.2d 1280, 1292 n.6 (9th Cir. 1992) (disclaimer had no significant impact). “Courts have been
justifiably skeptical of such devises—particularly where
exact copying is involved.” Au-Tomotive Gold, 457 F.3d at
1077.
106. Based on this evidence, the Court finds that there
is the requisite similarity between the two products and
also how they appear in the marketplace causes a likelihood of confusion about the source of the products. Thus,
the similarity factor favors Jack Daniels.
(E) Strength
107. Regarding the factor of the strength of the Jack
Daniel’s trademarks and trade dress, “[t]he stronger a
mark—meaning the more likely it is to be remembered
and associated in the public mind with the mark’s owner—
the greater the protection it is accorded by the trademark
laws.” La Quinta Worldwide LLC v. Q.R.T.M. SA de CV,

52a
762 F.3d 876, 874 (9th Cir. 2014); “The more ‘famous’ and
‘well known’ a [trade] mark, the greater the likelihood that
use on noncompetitive products will cause confusion.”
McCarthy, § 24:49.
108. Here, Jack Daniel’s asserted trademark and
trade dress protection are extremely strong: the Jack
Daniel’s trademarks have been used continuously for over
a century, except during Prohibition (Doc. 234 at 49-52);
Jack Daniel’s Tennessee whiskey has been the best-selling whiskey in the United States since 1997 (id.); and
between 1997 and April 30, 2015, Jack Daniel’s whiskey
sales in the United States exceeded seventy-five million
(75,000,000) cases of various sizes, and resulting revenues
exceeded ten billion dollars ($10,000,000,000) (id. at 50).
109. According to Jack Daniel’s internal records, aided
consumer awareness of the Jack Daniel’s brand is consistently around 98%. (Doc. 234 at 50.)
110. Taken together, this is compelling evidence of
strength. Thus, the strength factor strongly favors Jack
Daniel’s.
(F) Proximity/Relatedness
111. Regarding the factor of proximity and relatedness of the goods, related goods are those “products which
would be reasonably thought by the buying public to come
from the same source if sold under the same mark.”
Sleekcraft, 599 F.2d at 348 n.10.
112. Here, the parties’ goods can be said to be related.
Jack Daniel’s licensed its trademark and trade dress
rights for use with certain dog products. (Doc. 234 at 113.)
VIP’s “Bad Spaniels” dog toy is a related pet product to
Jack Daniel’s dog leashes, dog collars, and dog houses.

53a
See International Kennel Club of Chicago v. Mighty Star,
Inc., 846 F.2d 1079, 1089 (7th Cir. 1988) (dog shows and
dog toys related); (Docs. 230-9 thru 230-12.)
113. Although Jack Daniel’s is primarily a producer
and seller of whiskey, the consuming public observes Jack
Daniel’s trademarks and trade dress on a wide variety of
merchandise, from prepared meats to barbeque sauces,
from cigarette lighters to belt buckles and cufflinks, and
from charcoal to clothing, due to an extensive and longrunning licensing program. (Docs. 230-16 thru 231-7.)
114. Thus, the “relatedness of goods” factor favors
Jack Daniels regarding likelihood of confusion about the
source of the products.
(G) Marketing Channels
115. Regarding marketing channels, “[m]arketing
channels can converge[,] even when different submarkets
are involved[,] so long as ‘the general class[es] of . . . purchasers exposed to the products overlap.’”
Pom
Wonderful LLC v. Hubbard, 775 F.3d 1118, 1130 (9th Cir.
2014) (quoting Sleekcraft, 559 F.2d at 353).
116. “Bad Spaniels” and Jack Daniel’s merchandise
are not only sold to the same class of purchasers, but also
in some of the same stores, such as Walmart, Amazon.com,
and Boozingear.com. (Doc. 237 at 135-137, 231-19, 231-21.)
Moreover, VIP has also promoted an association by featuring Jack Daniel’s Tennessee whiskey in its marketing
materials for the “Bad Spaniels” dog toy. (Docs. 231-19,
231-21.)
117. Thus, for these reasons, the marketing channels
factor tips in favor of Jack Daniel’s.

54a
(H) Consumer Degree of Care
118. “[L]ow prices imply correspondingly low consumer care.” Fifty-Six Hope Road Music, Ltd. v.
A.V.E.L.A., 778 F.3d 1059, 1070-71 (9th Cir. 2015).
119. “[P]urchasers are unlikely to bother to inform the
trademark owner when they are confused about [the
source of] an inexpensive product.” See Beer-Nuts v. Clover Club Foods Co., 805 F.2d 920, 928 (10th Cir. 1986); AuTomotive Gold, 457 F.3d at 1077.
120. Consumers are not likely to exercise significant
care and attention when purchasing the “Bad Spaniels”
product due to its retail value of approximately $15. Although the price of “Bad Spaniels” may be expensive as a
dog toy, $15, because its relative price is not expensive,
consumers are more likely to be confused as to the source
of the product. See Playboy, 354 F.3d at 1028 (stating that
the lack of significant consumer care increases the likelihood of confusion).
121. Based on this evidence, the consumer care factor
also favors Jack Daniel’s.
(I) Product Line Expansion
122. Finally, regarding the likelihood of expansion of
the parties’ product lines, when parties in trademark cases
do not offer goods or services in the same field, this factor
assesses their likelihood of doing so.
123. “Inasmuch as a trademark owner is afforded
greater protection against competing goods, a ‘strong possibility’ that either party may expand his business to
compete with the other will weigh in favor of finding that
the present use is infringing.” Network Automation, 638
F.3d at 1153 (further citation omitted).

55a
(J) Conclusion – Likelihood of Confusion
124. Upon applying the Sleekcraft factors to the facts
of this matter and giving them due weight, there is a likelihood of consumer confusion and thus trademark and
trade dress infringement under both federal law, 15
U.S.C. §§ 1114, 1125(a), and A.R.S. § 44-1451.
VI.

ENTITLEMENT TO INJUNCTIVE RELIEF

125. Having prevailed on its trademark and trade
dress claims, Jack Daniel’s is entitled to an injunction
“subject to the principles of equity.”
15 U.S.C.
§§ 1025(c)(1), 1116(a).
126. According to the principles of equity, a claimant
must demonstrate: (1) that it has suffered an irreparable
injury; (2) that remedies available at law are inadequate to
compensate for that injury; (3) that the balance of hardships tips in its favor; and (4) that the public interest would
not be disserved by a permanent injunction. eBay, Inc. v.
MercExchange, L.L.C., 547 U.S. 388, 391 (2006). “Injunctive relief is the preferred remedy in trademark
infringement . . . cases because there is no adequate remedy at law for the injury caused by a defendant’s
continuing infringement.” Century 21 Real Estate Corp.
v. Sandlin, 846 F.2d 1175, 1180 (9th Cir. 1988).
127. Jack Daniel’s merits a permanent injunction in
this case. The “Bad Spaniels” product has caused a likelihood of confusion and reputational harm.
Thus,
permitting continued infringement and tarnishment of the
Jack Daniel’s trademarks and trade dress imposes a significant hardship on Jack Daniel’s, but would not impose a
legitimate hardship on VIP. Finally, a permanent injunction will serve the public interest by preventing continued
consumer confusion.

56a
VII.

CONCLUSION

On the basis of the foregoing,
IT IS HEREBY ORDRERED finding in favor of Defendant and against Plaintiff on all remaining claims.
Plaintiff is liable on all claims asserted by Defendant in
this case.
IT IS FURTHER ORDERED that Defendant is directed to file a proposed form of injunction by Friday,
February 23, 2018.
IT IS FURTHER ORDERED denying as moot Defendant’s Fourth and Fifth Motions in Limine. (Docs. 194,
195.)
DATED this 29th day of January, 2018.
/s/Stephen M. McNamee
Stephen M. McNamee
Senior United States District Judge

57a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF ARIZONA
VIP Products, LLC,
Plaintiff,

) No. CV-14-2057-PHX) SMM
)
vs.
) MEMORANDUM OF
) DECISION AND ORDER
Jack Daniel’s Properties, )
Inc.,
)
Defendant,
)
)
________________________ )
)
And Related Counterclaim. )
________________________ )
Pending before the Court is Plaintiff VIP Products,
LLC’s (“VIP”) motion for summary judgment. (Doc. 110.)
VIP contends that it is entitled to judgment as a matter of
law on its Amended Complaint that contains three claims
for declaratory relief. (Id.) VIP further contends that it
is entitled to judgment as a matter of law on all of the
claims that Defendant Jack Daniel’s Properties Inc.’s
(“JDPI”) brought as Counterclaims in its Answer. (Id.)
The matter is fully briefed.
Also pending is JDPI’s motion for partial summary
judgment. (Doc. 101.) At issue, JDPI moves for partial
summary judgment regarding VIP’s second and third
claims. (Id.) The matter is fully briefed.

58a
Finally, there are pending motions associated with the
parties’ cross-motions for summary judgment, which are
also fully briefed.
The Court will deny VIP’s motion for summary judgment, grant JDPI’s motion for partial summary
judgment, and resolve all of the pending motions associated with the parties’ cross-motions for summary
judgment.1 The Court will set a status hearing for the
parties in order to discuss the remaining matters that
must be adjudicated at trial.
FACTUAL BACKGROUND
The Court will summarize the basic factual background here. In its discussion of the particular claims, the
Court will discuss certain relevant and material facts that
arise in conjunction with those particular legal claims at
issue.
VIP designs, manufactures, markets, and sells chew
toys for dogs. VIP sells various brands of dog chew toys,
including the “Tuffy’s” line (durable sewn/soft toys), the
“Mighty” line (durable toys made of a different material
than the Tuffy’s line), and the “Silly Squeakers” line (durable rubber squeaky novelty toys). (Doc. 110 at 2.) In
July of 2013, VIP introduced its latest novelty dog toy, the
“Bad Spaniels” durable rubber squeaky novelty dog toy.
(Doc. 158.) The Bad Spaniels toy is in the shape of a liquor
bottle and features a wide-eyed spaniel over the words
“Bad Spaniels, the Old No. 2, on your Tennessee Carpet.”
Both parties have requested oral argument. Based on the parties’ extensive legal memoranda and submitted supporting evidence,
the Court will not set oral argument on the parties’ cross-motions as
it would not aid the Court’s decisional process. See e.g., Partridge v.
Reich, 141 F.3d 920, 926 (9th Cir. 1998).
1

59a
(Id.) The design for the Bad Spaniels toy has many similarities to the bottle design for Jack Daniel’s Tennessee
Sour Mash Whiskey (“Old No. 7 Brand”). (Doc. 157.)
These similarities include the shape of the product, the
use of white lettering over a black background, and font
styles. Nevertheless, on the back of the Silly Squeakers
packaging for the Bad Spaniels toy, it states: “This product is not affiliated with Jack Daniel’s.” (Doc. 158.)
JDPI promptly demanded that VIP stop selling the
new toy. (Doc. 47.) VIP responded by filing this suit seeking a declaratory judgment. (Doc. 49.) In Claim 1, VIP
alleged that its use of the Bad Spaniels’ name and trademark does not infringe or dilute any claimed trademark
rights that JDPI may claim in its Jack Daniel’s trademark
for its Tennessee sour mash whiskey and/or any other
product. (Id. at 9.) In Claim 2, VIP alleged that neither
the Jack Daniel’s trade dress nor the Jack Daniel’s bottle
design are entitled to trademark protection because they
are functional; they contain merely ornamental and decorative features; they are generic; and they are nondistinctive. (Id. at 9-10.) In Claim 3, VIP alleges that Jack
Daniel’s bottle design is not entitled to Patent and Trademark Office (“PTO”) registration because it is functional,
generic, and non-distinctive. (Id. at 10-11.) The PTO registration states that JDPI’s trademark consists of a threedimensional configuration of the square shaped bottle
container for the goods having an embossed signature design comprised of the words, “Jack Daniel.” (Doc. 49 at
5.) VIP contends that JDPI’s trademark registration
should be cancelled. (Id. at 10-11.)
In response, JDPI answered VIP’s complaint and filed
nine separate counterclaims: (1) Infringement of JDPI’s
federally-registered trademarks and trade dress under

60a
the Lanham Act, 15 U.S.C. § 1114, 1116-18; (2) Trade
dress infringement in violation of federal law, 15 U.S.C.
§ 1114, 1116-18 and 1125; (3) Dilution by tarnishment of
the JDPI trademarks under 15 U.S.C. § 1125(c); (4) Dilution by tarnishment of the Jack Daniel’s trade dress under
15 U.S.C. § 1125(c); (5) Trademark infringement in violation of Arizona law, A.R.S. §§ 44-1451 et seq.;
(6) Infringement of the JDPI trademarks and unfair competition at common law; (7) Infringement of the Jack
Daniel’s trade dress at common law; (8) Dilution of the
JDPI trademarks under A.R.S. § 44-1448.01; and (9) Dilution of the Jack Daniel’s trade dress under A.R.S. § 441448.01. (Doc. 12.)
JDPI alleged in its Answer that it owns a trade dress
consisting of a combination of square bottle with a ribbed
neck, a black cap, a black neck wrap closure with white
printing bearing the OLD NO. 7 mark, and a black front
label with white printing and a filigreed border bearing
the JACK DANIEL’S trademark depicted in arched lettering at the top of the label, the OLD NO. 7 trademark
contained within a filigreed oval design in the middle portion of the label beneath the JACK DANIEL’S
trademark, and the words “Tennessee Sour Mash Whiskey” in the lower portion of the label with the word
“Tennessee” depicted in script. (Doc. 12 at 5 ¶ 6; see also
Doc. 101 at 9.)
VIP has moved for summary judgment contending
that JDPI’s infringement and dilution claims be denied
because the defenses of nominative and First Amendment
fair use shield it from liability. (Doc. 110.) VIP further
argues that even if those defenses do not apply, VIP is still
entitled to summary judgment on all claims because JDPI

61a
cannot prove its dilution claims under the Trademark Dilution Revision Act (“TDRA”); as to JDPI’s infringement
claims, that Jack Daniel’s Tennessee Whiskey (“JDTW”)
trademarks and bottle dress are functional and non-distinctive. (Id. at 3, 15-28.)
JDPI moves for partial summary judgment on VIP’s
Amended Complaint. (Doc. 101.) As to Claim 1, JDPI
leaves for trial the issue of whether VIP’s alleged parody
infringes or dilutes the Jack Daniel’s trademarks and
trade dress. (Id. at 7.) As to Claims 2 and 3, JDPI
acknowledges that it bears the burden of proof regarding
the protectability of its Jack Daniel’s trade dress. (Id.)
JDPI disputes that the Jack Daniel’s trade dress and the
trademark shown in United States Trademark Registration No. 4,106,178 (See Doc. 12 at 7) are functional, contain
merely ornamental and decorative features that do not
function as trademarks, are generic, and are non-distinctive. (Doc. 101 at 6.)
STANDARD OF REVIEW
Summary Judgment
“A party may move for summary judgment, identifying each claim or defense–or the part of each claim or
defense–on which summary judgment is sought.” Fed. R.
Civ. P. 56(a) A court must grant summary judgment if the
pleadings and supporting documents, viewed in the light
most favorable to the nonmoving party, show “that there
is no genuine issue as to any material fact and the movant
is entitled to judgment as a matter of law.” Id.; see Celotex Corp. v. Catrett, 477 U.S. 317, 322-23 (1986);
Jesinger v. Nevada Fed. Credit Union, 24 F.3d 1127, 1130
(9th Cir. 1994). Substantive law determines which facts
are material. See Anderson v. Liberty Lobby, 477 U.S.

62a
242, 248 (1986); see also Jesinger, 24 F.3d at 1130. “Only
disputes over facts that might affect the outcome of the
suit under the governing law will properly preclude the
entry of summary judgment.” Anderson, 477 U.S. at 248.
The dispute must also be genuine, that is, the evidence
must be “such that a reasonable jury could return a verdict for the nonmoving party.” Id.; see Jesinger, 24 F.3d
at 1130.
A principal purpose of summary judgment is “to isolate and dispose of factually unsupported claims.”
Celotex, 477 U.S. at 323-24. Summary judgment is appropriate against a party who “fails to make a showing
sufficient to establish the existence of an element essential to that party’s case, and on which that party will bear
the burden of proof at trial.” Id. at 322; see also Citadel
Holding Corp. v. Roven, 26 F.3d 960, 964 (9th Cir. 1994).
The moving party need not disprove matters on which the
opponent has the burden of proof at trial. See Celotex,
477 U.S. at 323. The party opposing summary judgment
may not rest upon the mere allegations or denials of the
party’s pleadings, but must set forth “specific facts showing that there is a genuine issue for trial.” See Matsushita
Elec. Indus. Co. v. Zenith Radio, 475 U.S. 574, 586-87
(1986) (quoting Fed. R. Civ. P. 56(e) (1963) (amended
2010)); Brinson v. Linda Rose Joint Venture, 53 F.3d 1044,
1049 (9th Cir. 1995). The non-movant’s bare assertions,
standing alone, are insufficient to create a material issue
of fact and defeat a motion for summary judgment. Anderson, 477 U.S. at 247-48.
General Trademark Principles
“A trademark is a limited property right in a particular word, phrase or symbol.” New Kids on the Block v.
News Am. Publ’n, Inc., 971 F.2d 302, 306 (9th Cir. 1992).

63a
“Throughout the development of trademark law, the purpose of trademarks remained constant and limited:
Identification of the manufacturer or sponsor of a good or
the provider of a service.[] And the wrong protected
against was traditionally equally limited: Preventing producers from free-riding on their rivals’ marks.” Id. at 305.
“[T]he holder of a trademark will be denied protection if
it is (or becomes) generic, i.e., if it does not relate exclusively to the trademark owner’s product.” Id. at 306.
To state an infringement claim, whether it be a trademark claim or a trade dress claim, a plaintiff must meet
three basic elements: (1) distinctiveness, (2) nonfunctionality, and (3) likelihood of confusion. Kendall-Jackson
Winery, Ltd. v. E. & J. Gallo Winery, 150 F.3d 1042, 1047
(9th Cir. 1998).
General Trade Dress Principles
“Trade dress refers generally to the total image, design, and overall appearance of a product.” Two Pesos,
Inc. v. Taco Cabana, Inc., 505 U.S. 763, 765 n.1 (1992). It
may include the packaging, the “dress” of a product or the
design of a bottle. See Fiji Water Co. v. Fiji Mineral Water U.S., LLC, 741 F. Supp. 2d 1165, 1172-74 (C.D. Cal.
2010). A product’s trade dress or packaging is protectable
under trademark law so long as the trade dress is nonfunctional and distinctive. See Wal-Mart Stores, Inc. v.
Samara Bros., 529 U.S. 205, 210 (2000); Kendall-Jackson,
150 F.3d at 1047. “[T]he proper inquiry is not whether
individual features of a product are functional or nondistinctive but whether the whole collection of features taken
together are functional or nondistinctive.” Kendall-Jackson, 150 F.3d at 1050.

64a
The trade dress of a product is “distinctive and capable
of being protected if it either (1) is inherently distinctive
or (2) has acquired distinctiveness through secondary
meaning.” Two Pesos, Inc. v. Taco Cabana, Inc., 505 U.S.
763, 769 (1992). Broadly speaking, trade dress is inherently distinctive if it is so “unique, unusual, or unexpected
in this market that one can assume without proof that it
will automatically be perceived by consumers as an indicator of origin[.]” Fiji Water, 741 F. Supp. 2d at 1176
(citing Seabrook Foods, Inc. v. Bar-Well Foods Ltd., 568
F.2d 1342, 1344 (C.C.P.A. 1977)). Trade dress may also
acquire distinctiveness through secondary meaning, that
is, when the trade dress “‘has come through use to be
uniquely associated with a specific source.’” Two Pesos,
505 U.S. at 766 n.4 (quoting Restatement (Third) of Unfair
Competition § 13 (1995)).
The trade dress of a product is functional if the trade
dress is essential to the use or purpose of the product or
affects the cost or quality of the product. See Disc Golf
Ass’n v. Champion Discs, Inc., 158 F.3d 1002, 1006 (9th
Cir. 1998). The Ninth Circuit utilizes four factors to consider whether a product feature is functional: (1) whether
the design yields a utilitarian advantage; (2) whether alternative designs are available; (3) whether advertising
touts the utilitarian advantages of the design; and
(4) whether the particular design results from a comparatively simple or inexpensive method of manufacture. See
Disc Golf, 158 F.3d at 1006. No one factor is dispositive;
all are to be weighed collectively. See International Jensen, Inc. v. Metrosound U.S., Inc., 4 F.3d 819, 823 (9th Cir.
1993).
Alternatively, under the aesthetic functionality test,
trade dress may be functional if “protection of the [trade

65a
dress] as a trademark would impose a significant non-reputation related competitive disadvantage.” Au-Tomotive
Gold, Inc. v. Volkswagen of Am., Inc., 457 F.3d 1062, 1072
(9th Cir. 2006) (citing TrafFix Devices, Inc. v. Marketing
Displays, Inc., 532 U.S. 23, 32-33 (2001)). This means that
trade dress is aesthetically functional when it “serve[s] an
aesthetic purpose wholly independent of any source-identifying function, or in other words, where the consumer is
driven to purchase the product based on how it looks.”
Fiji Water, 741 F. Supp. 2d at 1173 (further quotation and
citation omitted).
DISCUSSION
The Court will first discuss VIP’s motion for summary
judgment. (Doc. 110.)
I. VIP’s Defenses
VIP first contends that all of JDPI’s counterclaims for
infringement and dilution must be denied because VIP’s
defenses of nominative fair use and First Amendment fair
use shield it from liability. (Doc. 110 at 3.)
Nominative Fair Use
Trademark law recognizes a defense where a registered trademark is used only “to describe the goods or
services of a party, or their geographic origin. See New
Kids, 971 F.2d at 306. “The ‘fair use’ defense, in essence,
forbids a trademark registrant to appropriate a descriptive term for his exclusive use and so prevent others from
accurately describing a characteristic of their goods.” Id.
(further citation omitted).
To establish nominative fair use, first, “the product or
service in question must be one not readily identifiable
without use of the trademark; second, only so much of the

66a
mark or marks may be used as is reasonably necessary to
identify the product or service;[] and third, the user must
do nothing that would, in conjunction with the mark, suggest sponsorship or endorsement by the trademark
holder.” Id. at 308.
VIP argues that its product constitutes nominative
fair use of the JDTW Marks and Bottle Dress because:
(1) the JDTW Marks and Bottle Dress are not readily
identifiable without using several of their elements. Given
the medium of the parody, a three-dimensional dog toy,
VIP argues that it had to utilize several key components
of the JDTW Marks and Bottle Dress; (2) VIP used only
so much of the JDTW Marks and Bottle Dress that were
reasonably necessary to identify the bottle. VIP otherwise
states that it did not specifically use any of JDPI’s registered marks; and (3) VIP did nothing to suggest that
JDPI had sponsored or endorsed the VIP Product. (See
Doc. 110 at 4.)
JDPI contends that the nominative fair use defense
does not apply because this defense only applies where a
defendant uses the plaintiff’s identical mark or trade
dress. (Doc. 142 at 10-11.) Here, VIP did not identically
use JDPI’s trademarks or trade dress. (Id.) According to
JDPI, the nominative fair use doctrine applies only
“where a defendant has used the plaintiff’s mark to describe the plaintiff’s product, even if the defendant’s
ultimate goal is to describe his own product,” citing Cairns
v. Franklin Mint Co., 292 F.3d 1139, 1151 (9th Cir. 2002)
(finding that it was necessary for the defendant to use the
name and likeness of Princess Diana to refer to its “Dianarelated” merchandise). (Doc. 142 at 10-11.)

67a
The Court does not find that VIP is entitled to be
shielded from liability based on its nominative fair use defense. VIP’s Bad Spaniels toy closely imitates the Jack
Daniel’s Trade Dress and marks, but it did not use any of
JDPI’s registered marks, including the Jack Daniel’s
name; the number 7; the embossed Jack Daniel’s’ signature on the bottle; the same filigree design on the label;
the three-sided body label, or the identical combination of
elements constituting the trade dress. Under the New
Kids test, when a defendant uses a trademark nominally,
the trademark will be identical to the plaintiff’s mark, at
least in terms of the words in question. 971 F.2d at 308.
As further stated in Playboy Enter., Inc. v. Welles, 279
F.3d 796, 801 (9th Cir. 2001), it is the defendant’s very use
of the plaintiff’s identical trademark that makes the nominative fair use analysis necessary rather than application
of AMF Inc. v. Sleekcraft Boats, 599 F.2d 341 (9th Cir.
1979) which utilizes eight factors to focus on the similarity
of the trademarks used by the plaintiff and the defendant
in order to determine liability for likelihood of confusion
in the marketplace. Because it is undisputed that VIP did
not use JDPI’s identical marks or trade dress in its Bad
Spaniels toy, the nominative fair use doctrine does not apply as matter of law.
First Amendment Fair Use
Next, VIP argues that JDPI’s infringement and dilution claims must fail because VIP’s Bad Spaniels’ parody
use of the JDTW Marks and Bottle Dress is protected
speech under the First Amendment. (Doc. 110 at 6.) VIP
states that its dog toy parody qualifies as an expressive
work under the First Amendment. (Id.) VIP argues that
in order to qualify as “expressive use,” first a defendant
must have used the mark “beyond its source-identifying

68a
function” (Id. at 6 (citing Mattel Inc. v. MCA Records,
Inc., 296 F.3d 894, 900 (9th Cir. 2002)), and second, its parody form of expression must not be part of a commercial
transaction. (Id. at 6-7, (citing Nissan Motor Co. v. Nissan
Comput. Corp., 378 F.3d 1002, 1017 (9th Cir. 2004)).)
JDPI contends that VIP’s dog toy is not entitled to
protection under the First Amendment. (Doc. 142 at 13.)
In MCA Records, 296 F.3d at 902, JDPI states that the
Ninth Circuit adopted the Rogers v. Grimaldi, 875 F.2d
994 (2d Cir. 1989), standard for determining the balancing
of interests between trademark law and the First Amendment. According to JDPI, the Rogers standard applies to
artistic or expressive works and requires courts to construe trademark law only where the public interest in
avoiding consumer confusion outweighs the public interest in free expression. Rogers, 875 F.2d at 999. Because
the VIP dog toy is not an artistic or expressive work,
JDPI contends that the Rogers balancing test is not applicable. (Doc. 142 at 14-15.) Rather, JDPI contends that
the VIP dog toy falls into those cases construing parody
products–cases which have uniformly applied the standard trademark likelihood of confusion analysis. (Id.)
The Court finds that VIP’s dog toy is not entitled to
protection under the First Amendment because it is not
an expressive work. See Brown v. Elec. Arts, Inc., 724
F.3d 1235 (9th Cir. 2013) (stating that the Rogers test is
reserved for expressive works). In Rogers, the court
dealt with the intersection of trademark law and the title
of a motion picture. 875 F.2d at 997. The Rogers court
went on to find that movies, plays, books, and songs are
works of “artistic expression” and thus subject to the balancing between trademark law and the protections of the
First Amendment. Id.; see also E.S.S. Entm’t 2000 Inc. v.

69a
Rock Star Videos, Inc., 547 F.3d 1095, 1099 (9th Cir. 2008)
(stating that the Rogers balancing test only applies to artistic works). Although Rogers dealt with a motion
picture; the Ninth Circuit has also applied the Rogers balancing test to a song (MCA Records), photographs
(Mattel Inc. v. Walking Mountain Prods., 353 F.3d 792
(9th Cir. 2003), and video games (E.S.S. and Brown).
In this case, the Court finds that the standard trademark likelihood of confusion analysis, not Rogers, is
appropriate. See Sleekcraft Boats, 599 F.2d at 348-49 (establishing the eight factors applicable to likelihood of
confusion analysis). Under likelihood of confusion principles, confusion exists where there is a likelihood that an
appreciable number of ordinary prudent purchasers will
be misled or confused as to the source of goods, or where
consumers are likely to believe that the trademark’s
owner sponsored, endorsed, or otherwise approved of the
defendant’s use of the trademark. Id. Based on the facts
here, the First Amendment affords no protection to VIP
because it is trademark law that regulates misleading
commercial speech where another’s trademark is used for
source identification in a way likely to cause consumer
confusion. See Tommy Hilfiger Licensing, Inc. v. Nature
Labs, LLC, 221 F. Supp. 2d 410, 415 (S.D.N.Y. 2002) (refusing First Amendment protection to “Timmy
Holedigger” an alleged parody “dog perfume” in favor of
the owner of the Tommy Hilfiger trademarks for clothing). Here, as was similarly the case in Tommy Hilfiger,
VIP is using an adaptation of the Jack Daniel’s trademark
and trade dress for the dual purpose of making an alleged
expressive comment as well as the commercial selling of a
non-competing product. See Tommy Hilfiger, 221 F.
Supp. 2d at 415. The Court agrees with the analysis in

70a
Tommy Hilfiger that because the adaptation of the Jack
Daniel’s trademark and trade dress mark are being used,
at least in part, to promote a somewhat non-expressive,
commercial product, the First Amendment does not extend to such use. See id. at 415-16.
In conclusion, the Bad Spaniels dog toy is not an expressive work for purposes of the application of the
Rogers test because VIP makes trademark use of its adaptations of JDPI’s trademarks and the Jack Daniel’s
trade dress to sell a commercial product, its novelty dog
toy. The novelty dog toy is not an expressive work like
those to which the Rogers test has been applied in the
Ninth Circuit. In this case, where the adaptation of the
Jack Daniel’s trademark and trade dress were engaged
for the dual purpose of making an alleged expressive comment as well as the commercial selling of a non-competing
product, the First Amendment does not establish protection.
II. VIP’s Motion for Summary Judgment Re:
JDPI’s Counterclaims for Trade Dress Infringement
In JDPI’s Answer to VIP’s Complaint for Declaratory
Judgment, JDPI asserted nine counterclaims against
VIP. (Doc. 12.) In five of those claims, JDPI asserted either trademark or trade dress infringement. (Id.) In the
other four claims, JDPI asserted trademark and trade
dress dilution. (Id.) In VIP’s motion for summary judgment, it alleged entitlement to summary judgment on
each of JDPI’s counterclaims. (Doc. 110.) As a threshold
matter, VIP contended that it is entitled to summary
judgment on all of JDPI’s counterclaims because the nominative fair use defense and the First Amendment fair use
defense shield it from liability. (Id. at 3.)

71a
The Court has found that neither nominative fair use
nor First Amendment fair use provides a defense for VIP.
Consequently, the Court turns to the merits of VIP’s arguments that it is entitled to summary judgment.
Infringement Claims
To state an infringement claim, whether it be a trademark claim or a trade dress claim, a plaintiff must meet
three basic elements: (1) distinctiveness, (2) nonfunctionality, and (3) likelihood of confusion. See KendallJackson, 150 F.3d at 1047. VIP alleges that the bottle
dress of the Jack Daniel’s Tennessee whiskey bottle and
the “Jack Daniel” embossed signature bottle design lacks
distinctiveness and is functional. (Doc. 110 at 15-28.)
Lack of Distinctiveness
Generic
VIP first argues that JDPI has not proven that the
JDTW bottle dress is a source identifier for Jack Daniel’s
whiskey. Rather, VIP argues that the JDTW bottle dress
is only a generic identifier of Kentucky Bourbon/Tennessee Whiskey, not Jack Daniel’s whiskey in particular.
(Doc. 110 at 18.) In order for JDPI to prove that its JDTW
bottle dress is not generic, VIP argues that JDPI must
show more than a subordinate meaning that applies to its
trade dress. (Id.) It must show that the primary significance of the term in the minds of the consuming public is
not the product but the producer. (Id.)
JDPI contends that VIP’s expert, Martin Wolinsky,
has already conceded that the JDTW bottle dress is not
generic, but a source identifier for Jack Daniel’s whiskey.
(See Doc. 104-5 at 23, Deposition of Martin Wolinsky (“Q:

72a
Do you consider the Jack Daniel’s packaging to be generic? . . . A: I do not consider the Jack Daniel’s package
to be generic.”)
The Court finds that the JDTW bottle dress is a source
identifier for Jack Daniel’s whiskey. The JDTW bottle
dress is a combination bottle and label elements. It includes the Jack Daniel’s and Old No. 7 word trademarks.
(See Doc. 12 at 5, ¶6.) Under Kendall-Jackson, the inquiry
is not whether individual features of the trade dress are
nondistinctive, but whether the whole collection of features taken together are nondistinctive. See 150 F.3d at
1050. No reasonable trier of fact could find that the
JDTW Bottle Dress, as a “whole collection of features
taken together,” id., including the Jack Daniel’s and Old
No. 7 trademarks, merely serves as an identifier for any
Kentucky Bourbon/Tennessee Whiskey. The Court finds
that the JDTW Bottle Dress is a source identifier for Jack
Daniel’s whiskey; it is not generic as a matter of law.
Inherent Distinctiveness
Next, VIP argues that JDPI’s infringement counterclaims fail because it cannot prove that the JDTW bottle
dress is inherently distinctive. (Doc. 110 at 18, 21-23.)
JDPI acknowledges that its JDTW bottle dress is not inherently distinctive. (Doc. 142 at 30.)
Acquired Distinctiveness-Secondary Meaning
Next, VIP argues that JDPI’s infringement counterclaims fail because it cannot prove that the JDTW Bottle
Dress has acquired distinctiveness through secondary
meaning. (Doc. 110 at 23-28.) In support, VIP contends
that JDPI has not established any direct evidence of acquired distinctiveness through secondary meaning. (Id.
at 24.) Further, VIP contends that JDPI’s circumstantial

73a
evidence is also lacking. (Id. at 25-28.) VIP argues that
although JDPI relies on extensive sales and advertising,
extensive consumer recognition, billions of dollars in revenue, and allegedly being one of the most iconic consumer
products in American history, JDPI has failed to substantiate these vague claims with actual, probative evidence.
(Id.) Accordingly, VIP contends that the JDTW bottle
dress has not acquired distinctiveness through secondary
meaning. (Id.)
In support of acquired distinctiveness through secondary meaning, JDPI contends that it has both direct and
circumstantial evidence in support. Regarding direct evidence, JDPI contends that VIP intentionally copied
aspects of the JDTW bottle dress. (Doc. 142 at 31-32.)
JDPI also contends that Dr. Gerald Ford’s likelihood of
confusion survey is directly probative of secondary meaning. (Id. at 32-33.) In further support, JDPI contends that
its circumstantial evidence is probative of secondary
meaning. (Id. at 33-37.) JDPI cites the success of its advertising, it being the best-selling US whiskey for almost
20 years, and significant media exposure of its overall
product packaging. (Id.)
Secondary Meaning-Direct Evidence
“[A] mark has acquired distinctiveness, . . . if it has developed secondary meaning, which occurs when ‘in the
minds of the public the primary significance of a [mark] is
to identify the source of the product rather than the product itself.” Wal-Mart, 529 U.S. at 211. “It is well
established that trade dress can be protected under federal law. The design or packaging of a product may
acquire a distinctiveness which serves to identify the
product with its manufacturer or source; and a design or

74a
package which acquires this secondary meaning, assuming other requisites are met, is a trade dress which may
not be used in a manner likely to cause confusion as to the
origin, sponsorship, or approval of the goods.” TrafFix
Devices, 532 U.S. at 28.
The Court finds that JDPI has established direct evidence of secondary meaning. VIP admits that it
intentionally copied the JDTW bottle dress, and that it did
so precisely to enable consumers to instantly recognize
Jack Daniel’s whiskey as the “target” of the Bad Spaniels
alleged parody. (See Doc. 110 at 2 (VIP stating that it designed the Bad Spaniels dog toy to be a comical parody of
a Jack Daniel’s whiskey bottle).) VIP’s copying of the
identifiable parts of the JDTW bottle dress was indisputably an attempt to capitalize and free ride upon the
success of Jack Daniel’s existing secondary meaning. In
this case, intentional copying by VIP supports an inference of secondary meaning. See Vision Sports v. Melville
Corp., 888 F.2d 609, 615 (9th Cir. 1989) (stating that proof
of copying strongly supports an inference of secondary
meaning); Lisa Frank, Inc. v. Impact Int’l, Inc., 799 F.
Supp. 980, 989 (D. Ariz. 1992) (same). Thus, JDPI has established direct evidence of secondary meaning.
Next, the Court also finds that JDPI has established
circumstantial evidence of acquired distinctiveness
through secondary meaning. Between 1997 and 2015,
sales of Jack Daniel’s whiskey in the United States exceeded 75 million cases, and advertising expenditures
were in the hundreds of millions of dollars. (Doc. 105 at 16.) The sales, advertising, and public exposure of JDTW
is greater than the facts that established secondary meaning in Fiji Water. Between 1997, when FIJI water was

75a
first sold, and 2010, Fiji sold nearly 65 million cases worldwide and expended more than $65 million in advertising.
741 F. Supp. 2d at 1177. JDTW has been sold and advertised in the Jack Daniel’s Trade Dress for more than 30
years longer than FIJI water. (See Doc. 106 at 1-6, Docs.
106-1 through 106-4.) Between 1997 and April 30, 2015,
JDPI states that total unit sales of JDTW in the United
States in various sizes exceeded 75 million units, resulting
in revenues exceeding ten billion dollars. (Doc. 105 at 16.) JDPI further states that the vast majority of these
sales were in packaging bearing the Jack Daniel’s Trade
Dress. (Id.)
Furthermore, VIP admits that through JDPI’s advertising it has created significant customer recognition of
Jack Daniel’s whiskey. (See Doc. 104-2 at 34, Deposition
of Stephen Sacra, Chief Executive Officer of VIP, “Q: Do
you agree that the Jack Daniel’s trademark is very well
known in the United States? . . . A: I think that Jack Daniel’s is more recognizable than other brands. But they’ve
spent a lot of money to make that recognition.”) Mr. Sacra
further acknowledged that “the success of the Bad Spaniels toy “comes from the fact that people are familiar with
Jack Daniel’s . . . and have seen it before, and will get the
parody.” (Id.) Based on all of the above, the Court finds
that JDPI’s circumstantial evidence also demonstrates
acquired distinctiveness through secondary meaning.
Thus, JDPI has established acquired distinctiveness
through secondary meaning both with direct and circumstantial evidence. Therefore, VIP’s motion for summary
judgment regarding JDTW bottle dress’s lack of distinctiveness will be denied.

76a
Nonfunctionality
To state an infringement claim, whether it be a trademark claim or a trade dress claim, JDPI must establish
the element of nonfunctionality. VIP argues that the
JDTW bottle is functional; JDPI contends otherwise.
Utilitarian Functionality
“The functionality doctrine prevents trademark law,
which seeks to promote competition by protecting a firm’s
reputation, from instead inhibiting legitimate competition
by allowing a producer to control a useful product feature.” Qualitex Co. v. Jacobson Prod. Co., 514 U.S. 159,
164 (1995). The Ninth Circuit asks four questions to test
utilitarian functionality: (1) whether the trade dress
yields a utilitarian advantage; (2) whether alternative designs are available; (3) whether advertising touts the
utilitarian advantages of the design; and (4) whether the
particular design results from a comparatively simple or
inexpensive method of manufacture. See Disc Golf, 158
F.3d at 1006. No one factor is dispositive; all are to be
weighed collectively, that is, whether the whole collection
of elements are functional. See International Jensen, 4
F.3d at 822-23. Given the functionality doctrine’s underlying purpose, the Ninth Circuit applies it with somewhat
less force in product packaging cases, as opposed to cases
involving product configuration. See Clicks Billiards Inc.
v. Sixshooters Inc., 251 F.3d 1252, 1261 (9th Cir. 2001)
(stating that a wide range of available packaging and design options allows a producer to appropriate a distinctive
identity without unduly hindering his competitor’s ability
to compete).
In support of JDTW bottle dress’s utilitarian functionality, VIP makes two arguments: (1) that its features are

77a
“essential to the use or purpose of the article [or] affects
[its] cost or quality” citing Inwood Labs. v. Ives Labs.,
Inc., 456 U.S. 844, 850, n.10 (1982); and (2) based on VIP’s
expert John Howard’s report, VIP argues that the Jack
Daniel’s embossed-signature bottle design is one of the
several utilitarian features used in the JDTW bottle
dress. (Doc. 116 at 85-95.) VIP contends that because
JDPI has not offered controverting testimony, other than
the opinions of interested parties (i.e., JDPI employees),
this design feature is clearly functional under Disc Golf.
(Doc. 110 at 16.)
JDPI responds that the JDTW bottle dress reflects
aesthetic design choices and embodies branding features
that focus on the historical identification of the product,
and that such are wholly unrelated to utility. (Doc. 142 at
25 (citing Doc. 101 at 20-22 in support of lack of utilitarian
functionality).) JDPI states that it only seeks to protect
the square “shape of the bottle, together with aesthetic
elements” of the JDTW bottle dress, nothing more. (Doc.
101 at 20.) JDPI contends that its advertising does not
tout any utilitarian advantage of the JDTW bottle design,
rather, its advertising focuses on the quality and history
of JDTW. (Id.) Finally, JDPI contends that its JDTW
bottle dress is not a comparatively simple or inexpensive
method of manufacture, given its manufacture of a square
bottle and the use of an embossed signature on all four
sides of the bottle. (Id. at 27-28.)
Based on VIP’s arguments regarding utilitarian functionality of the JDTW bottle dress, the Court finds that
VIP is not entitled to summary judgment. The Court
notes that based on the four factors set forth in Disc Golf,
VIP chose not to address how each factor supports its contention that the JDTW bottle dress is functional. See

78a
International Jensen, 4 F.3d at 822-23 (stating that the
four factor review considers whether the whole collection
of product packaging are functional).
Initially, the Court finds that JDPI’s advertising does
not tout any utilitarian advantage of the JDTW bottle design, rather, its advertising has focused on the quality and
history of JDTW. (Doc. 105 at 4, 105-2 at 1-116.) VIP’s
expert, John Howard, acknowledged that advertising for
Jack Daniel’s whiskey did not tout any utilitarian advantages of the Jack Daniel’s bottle design. (Doc. 104-4 at
64-65.)
Next, the Court must look at product packaging as a
whole, with a particular focus on whether JDPI’s particular integration of the various elements on the packaging
leaves competitors with commercially-feasible alternatives. See Clicks Billiards, 251 F.3d at 1261 (explaining
that utilitarian functionality in packaging-type cases evaluates whether the “particular integration of elements
leaves a multitude of alternatives to [competitors in the]
industry that would not prove confusingly similar”). As
shown in Doc. 104-7 at 22, 24, and admitted by VIP (See
Doc. 104-7 at 5, 22, 24, and 30-31), there are many, many
alternative trade dresses available for use by the competition for whiskey.
VIP acknowledged that some
companies use elements of the Jack Daniel’s trade dress,
including a square bottle, and graphic features such as filigree and arched lettering, but none combine all of these
elements together with the other elements of the Jack
Daniel’s trade dress. (See Doc. 104-3 at 17-18.) “Since
competitors routinely use alternative designs in packaging their [whiskey], protecting the particular combination

79a
of elements in the [Jack Daniel’s] packaging will not hinder competition in the [spirits] industry.” Fiji Water, 741
F. Supp. 2d at 1174.
Based on the foregoing, VIP has not demonstrated
that it is entitled to summary judgment that the JDTW
Bottle Dress has utilitarian functionality.
Aesthetic Functionality
“[P]urely aesthetic product features may be protected
as a trademark where they are source identifying and are
not functional.” Au-Tomotive Gold, 457 F.3d at 1064. Under the aesthetic functionality test, trade dress may be
functional if “protection of the [trade dress] as a trademark would impose a significant non-reputation-related
competitive disadvantage.” Id. at 1072. In practice, aesthetic functionality thus has been limited to product
features that serve an aesthetic purpose wholly independent of any source-identifying function. Id. (stating that
there was no evidence that consumers buy Auto Gold’s
products solely because of their intrinsic aesthetic appeal;
instead the alleged aesthetic function is indistinguishable
from and tied to the mark’s source-identifying nature–
Audi and VW Logos).
VIP argues that in order to evaluate aesthetic functionality, the Court should utilize the comparablealternatives test or the effective-competition test. (Doc.
110 at 17-18.) Regarding the comparable-alternatives
test, VIP argues that the focus is on the existence of feasible alternative designs, meaning how difficult it would
be for JDTW’s competitors to compete in the market if
they were precluded from using the JDTW’s design, and
were instead required to transition to a new design, citing

80a
competitive use of square bottles. (Id. at 17.) Next, regarding the effective-competition test, VIP argues that
the focus is on whether a particular design feature is a
pre-requisite for market participation. If, for whatever
reason, the cost of protection renders JDTW’s competitors unable to compete in the relevant market, then the
feature is not protectable, citing the square bottle, blackand-white label, number designation, arched text, and filigree design. (Id. at 18.)
JDPI cites to Au-Tomotive Gold as the proper Ninth
Circuit standard and its holding that aesthetic functionality inquires into whether protection of the feature as a
trademark would impose a significant non-reputation-related competitive disadvantage. 457 F.3d at 1072. In
response to VIP, JDPI contends that its competitor’s
trade dress demonstrates that multiple comparable alternatives exist and are in use, and that the use of the
combination of features in the JDTW bottle dress for decades has had, and will have, no impact on the ability of
competitors to use individual features, singly or in partcombination. (Doc. 142 at 27.) JDPI further contends
that “[s]ince competitors routinely use alternative designs
in packaging their [whiskey], protecting the particular
combination of elements in the [Jack Daniel’s] packaging
will not hinder competition in the [spirits] industry” (Id.
at 28 (quoting Fiji Water, 741 F. Supp. 2d at 1174).)
The Court agrees with JDPI; based on the submitted
evidence, the Court first finds that VIP is not entitled to
summary judgment based on the argument that consumers buy Jack Daniel’s Tennessee Whiskey because of its
intrinsic aesthetic appeal. See Au-Tomotive Gold, 457
F.3d at 1073. Rather, as the court stated in Fiji Water,

81a
“[c]onsumers do not buy [whiskey] based on how its packaging looks, but rather on how the [whiskey] tastes or how
much it costs.” Fiji Water, 741 F. Supp. 2d at 1174.
As to JDTW’s packaging, “[s]ince competitors routinely use alternative designs in packaging their
[whiskey], protecting the particular combination of elements in the [Jack Daniel’s] packaging will not hinder
competition in the [spirits] industry” Id. Rather, the combination of the trademarks and the aesthetic elements
merely source-identify JDTW bottle dress as JDTW.
Lack of Confusion
The Court has found that VIP is not entitled to summary judgment regarding the first two elements of
JDPI’s counterclaim regarding trade dress infringement,
rejecting VIP’s contention that the JDTW bottle dress is
functional and non-distinctive. VIP’s motion for summary
judgment fails to argue lack of confusion. (Doc. 110.) In
its reply in support of summary judgment, VIP reiterated
that it need not undertake an analysis of the Sleekcraft
likelihood of confusion factors in its motion for summary
judgment because VIP is not required to rebut confusion
in order to receive protection under the fair use defenses.
(Doc. 163 at 7.)2 However, in this case, the Court has rejected VIP’s nominative and First Amendment fair use
defenses.
Although VIP argues the Sleekcraft factors in its Reply (Doc.
163 at 8-10), the Court will not consider arguments raised for the first
time in a Reply. “It is well established that issues cannot be raised for
the first time in a reply brief.” Gadda v. State Bar of Cal., 511 F.3d
933, 937 n.2 (9th Cir. 2007). The Court need not belabor the point that
VIP could have raised alternative arguments regarding Sleekcraft in
its motion for summary judgment; it chose not to raise such arguments.
2

82a
Under Sleekcraft, the Court analyzes eight factors to
determine likelihood of confusion: (1) strength of the
mark; (2) proximity of the goods; (3) similarity of the
marks; (4) evidence of actual confusion; (5) marketing
channels used; (6) type of goods and the degree of care
likely to be exercised by the purchaser; (7) VIP’s intent in
selecting the mark; and (8) likelihood of expansion of the
product lines. See 599 F.2d at 348-49.
The material facts are construed in favor of the nonmoving party, JDPI. JDPI contends that there are material facts in its favor from which a reasonable trier of fact
could find for JDPI on its infringement claims under
Sleekcraft. JDPI argues that it established VIP’s intentional copying of various aspects of its trade dress, the
close similarity between the Bad Spaniels’ trademark and
trade dress to the Jack Daniel’s trademarks and trade
dress, and the longstanding and extensive sales, advertising, and public exposure of Jack Daniel’s whiskey.
In general, likelihood of confusion is often a fact-intensive inquiry, and therefore courts are reluctant to decide
this issue at the summary judgment stage. See Au-Tomotive Gold, 457 F.3d at 1075. The Court finds that VIP is
not entitled to summary judgment on the likelihood of
confusion element regarding JDPI’s counterclaims for
trade dress infringement.
III. VIP’s Motion for Summary Judgment RE:
JDPI’s Counterclaim for Trade Dress Dilution
On October 6, 2006, the Trademark Dilution Revision
Act of 2006 (the “TDRA”), was signed into law. See
Pub.L. 109–312, 120 Stat. 1730 (Oct. 6, 2006). The TDRA
defines dilution as follows:

83a
Subject to the principles of equity, the
owner of a famous mark that is distinctive,
inherently or through acquired distinctiveness, shall be entitled to an injunction
against another person who, at any time after the owner’s mark has become famous,
commences use of a mark or trade name in
commerce that is likely to cause dilution by
blurring or dilution by tarnishment of the
famous mark, regardless of the presence or
absence of actual or likely confusion, of competition, or of actual economic injury.
15 U.S.C. § 1125(c)(1).
In JDPI’s Answer to VIP’s Complaint, it raised four
counterclaims related to dilution: dilution by tarnishment
of JDPI’s trademarks under federal law; dilution by tarnishment of Jack Daniel’s trade dress under federal law;
and trademark and trade dress dilution under Arizona
law. (Doc. 12 at 3-21.)
VIP claims that it is entitled to summary judgment on
Jack Daniel’s trade dress dilution claim under federal law
because: (1) the alleged Jack Daniel’s trade dress is not
“famous” under the TDRA; (2) the VIP Product is not
similar enough to the Jack Daniel’s trade dress to dilute;
(3) the VIP Product is not likely to cause dilution by tarnishment; and (4) even if JDPI were able to meet its
burden under the TDRA, VIP is not liable for dilution by
tarnishment because VIP’s Product is exempted by
TDRA’s fair-use provision. (Doc. 110 at 9.)
JDPI initially notes that VIP only challenges one of its
dilution counterclaims, its Jack Daniel’s trade dress dilution by tarnishment claim under federal law. (Doc. 142 at

84a
19; see Doc. 12 at 16-17 and at 5 ¶ 6) (picturing Jack Daniel’s trade dress).) JDPI responds that VIP’s challenge to
this claim is without merit. (Doc. 142 at 9.)
Federal Trade Dress Dilution-Tarnishment
The TDRA provides for injunctive relief for dilution
by tarnishment claims under 15 U.S.C. § 1125(c)(1). The
TDRA further defines dilution by tarnishment, as follows:
“For purposes of [15 U.S.C. § 1125(c)(1)], ‘dilution by tarnishment’ is association arising from the similarity
between a mark or trade name and a famous mark that
harms the reputation of the famous mark.” 15 U.S.C.
§ (c)(2)(C).
VIP’s Fair Use Defense
Under the TDRA, VIP claims its parody product,
which satirizes JDPI’s product, is not actionable under an
anti-dilution statute because of its fair use defense. (Doc.
110 at 15.)
JDPI claims that VIP’s argument is without merit under the TDRA. (Doc. 142 at 24.) Under the TDRA,
§ 1125(c)(3)(A) provides an exclusion for liability for
“[a]ny fair use . . . other than as a designation of source for
the person’s own goods or services, including use in connection with . . . (ii) parodying . . . .” Thus, according to
JDPI, “[u]nder the statute’s plain language, parodying a
famous mark is protected by the fair use defense only if
the parody is not ‘a designation of source for the person’s
own goods or services’.” (Doc. 142 at 24-25 (quoting Louis
Vuitton Malletier S.A. v. Haute Diggity Dog LLC, 507
F.3d 252, 266 (4th Cir. 2007)).) JDPI contends that the
fair use exclusion was not available to the defendant in
Louis Vuitton because the defendant used its parody dog
toy, Chewy Vuitton, as a trademark to designate the

85a
source. (Id. at 25 (citing Louis Vuitton, 507 F.3d at 267).)
In the same manner, JDPI states that the fair use defense
is not applicable here because VIP uses its Bad Spaniels
trademark and trade dress as source identifiers of its dog
toy.
The Court finds that the language of the statute and
its application in Louis Vuitton is directly applicable here
and compel the result that the fair use defense is not available to VIP and its alleged parody product. See Louis
Vuitton, 507 F.3d at 267. Under the facts here, VIP did
use its Bad Spaniels trademark and trade dress as source
identifiers of its dog toy, which takes its alleged parody
product outside the fair use defense under the TDRA.
Fame of Jack Daniel’s Trade Dress
On the merits, VIP challenges Jack Daniel’s trade
dress dilution by tarnishment claim under the FDRA.
VIP alleges that Jack Daniel’s trade dress, separate and
apart from the possible fame of the JDTW trademarks, is
not famous, that is, not being widely recognized by the
general consuming public as a designation of the source of
the goods of the trademark’s owner. (Doc. 110 at 9-10.)
According to VIP, Jack Daniel’s trade dress is not famous
enough to support its dilution claim because Jack Daniel’s
trade dress is not a source identifier. (Id. at 10 (citing the
competition’s use of many of the same design elements in
their trade dresses, especially the use of square bottles).)
VIP further alleges that Jack Daniel’s trade dress is
not famous due to lack of actual recognition. According to
VIP, the only direct evidence JDPI presented to show national fame is the Ford Survey, but Dr. Gerald Ford
admitted that his survey did not test for fame. (Id. at 11.)
Further, VIP argues that even if the Ford Survey had

86a
tested for fame, it would not be probative because the survey respondents were not representative of the general
consuming public in the United States. (Id.)
With regard to the factors listed at 15 U.S.C.
§ 1125(c)(2)(A)(i)-(iv), VIP alleges that JDPI’s advertising
and promotional evidence is not probative because it is not
specific to Jack Daniel’s trade dress. (Id. at 12.) Regarding sales, VIP alleges that without evidence of actual
consumer recognition, the evidentiary value of Jack Daniel’s Tennessee whiskey’s sales is non-existent.
Regarding federal registration, VIP alleges that JDPI
must prove that its unregistered trade dress is famous,
independent of its registered trade marks. (Id.)
JDPI responds that in analyzing trade dress for all
purposes, the focus is “not on the individual elements,
[like square bottles,] but rather the overall visual impression that the combination and arrangement of those
elements create.” Clicks Billiards, 251 F.3d at 1259.
JDPI argues that Jack Daniel’s trade dress as a whole is
widely recognized by the general consuming public as a
designation of the source of the goods of the trademark’s
owner, that is, that it is a source identifier for Jack Daniel’s Tennessee whiskey.
Regarding lack of direct evidence of fame, JDPI contends that all relevant factors should be considered
including indirect evidence of fame such as advertising or
sales. According to JDPI, evidence of actual recognition
of fame, such as a survey, is not required. JDPI contends
that based upon VIP’s deliberate copying, the undisputed
success of sales, advertising, and public exposure of Jack
Daniel’s Tennessee Whiskey, which is packaged in the

87a
Jack Daniel’s trade dress, provide sufficient indirect evidence from which a reasonable trier of fact could find the
fame of the Jack Daniel’s trade dress.
The Court determines that a reasonable trier of fact
could find that Jack Daniel’s trade dress as a whole serves
as a source identifier for Jack Daniel’s Tennessee Whiskey. See Clicks Billiards, 251 F.3d at 1259 (stating the
Clicks Billiards could claim as its mark the particular combination and arrangement of design elements that
distinguish it from others using the same concept); see
also Wal-Mart, 529 U.S. at 215 (stating that overall product packaging is the typical form of trade dress and it
normally is taken by the customer to indicate orgin).
Next, based on consideration of the statutory factors,
see 15 U.S.C. § 1125(c)(2)(A)(i)-(iv), it is undisputed that
the sales, advertising, and public exposure of Jack Daniel’s whiskey packaged in the Jack Daniel’s trade dress
provide substantial indirect evidence of fame. Between
1997 and 2015, sales of Jack Daniel’s whiskey packaged in
the Jack Daniel’s trade dress exceeded 75 million cases in
the United States, yielding revenues in excess of $10 billion dollars and advertising expenditures in the hundreds
of millions of dollars (Doc. 101 at 15); cf. Mattel Inc. v.
MGA Ent. Inc., 782 F. Supp. 2d 911, 942 (C.D. Cal. 2011)
(finding that MGA had presented no evidence, direct or
indirect, of the fame of its trade dress); Vallavista Corp. v.
Amazon.com, Inc., 657 F. Supp. 2d 1132, 1138-39 (N.D.
Cal. 2008) (finding that the limited evidence of use, coupled with very modest sales and advertising expenditures,
was insufficient to prove fame); Clearly Food & Bev. Co.
v. Top Shelf Bevs., Inc., No. CV 13-1763, 2015 WL
1926503, *17 (W.D. Wash. Apr. 28, 2015) (finding that the
product bearing the allegedly famous mark had been out

88a
of production for six years, only negligible sales were still
occurring, and the defendant’s survey showed very low
recognition of the mark). Thus, as a whole, the Court determines that a reasonable trier of fact could find that
Jack Daniel’s trade dress is famous. (See Doc. 12 at 5 (picturing Jack Daniel’s trade dress at ¶ 6).)
VIP’s Motion to Exclude Testimony of JDPI’s
Expert, Dr. Itamar Simonson
Prior to the Court’s resolution of the remaining elements of JDPI’s dilution by tarnishment claim, VIP
moves to exclude the report and the testimony of JDPI’s
dilution expert, Dr. Itamar Simonson. (Doc. 92.) According to VIP, JDPI’s expert purports to opine on the issue
of whether, and how, consumers associate VIP’s product
with JDPI’s product and whether that association dilutes
JDPI’s trade dress by harming its reputation. (Id.) VIP
contends that Dr. Simonson’s reported opinion is lacking
in both methodology and conceptual support that would
permit admissibility as a scientific expert opinion. (Id. at
2.) In further support of exclusion, VIP argues that Dr.
Simonson does not qualify as an “experienced-based” expert because an experience-based expert is someone with
relevant real world experience, not someone who fails to
follow scientific methodology. (Id. at 3.) Based on Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579
(1993) and Fed. R. Evid. 702, VIP contends that the Court
should exercise its gatekeeping function and deny admissibility to both Dr. Simonson’s report and his testimony at
trial. (Id.)
JDPI contends that the opinions and testimony of its
dilution expert, Dr. Itamar Simonson, should be admitted.
(Doc. 96.) According to JDPI, Dr. Simonson has been retained as an expert witness to testify regarding the

89a
implication(s) of the association between the Bad Spaniels
toy and Jack Daniel’s whiskey on JDPI’s trade dress and
trademarks and the meaning of the mark/brand to consumers. (Id. at 6.)
In summary of Dr. Simonson’s expert report (Doc. 96
at 3 (citing Doc. 92-1)), JDPI states that Dr. Simonson will
assist the finder of fact by discussing the following at trial:
1) The basics of consumer behavior and “how marks
such as famous trade dress are represented in memory.”
(Doc. 92-1 at 4, 7–9);
2) The basics of the “associative network memory
model” which are accepted by experts in the consumer behavior field. (Id. at 4–5);
3) The application of the “associative network memory
model” to the instant case. (Id. at 10–12); and
4) The conclusion that VIP’s Bad Spaniels toy causes
negative implication for JDPI’s trade dress and marks
and thus is likely to tarnish them. (Id. at 10–14.)
JDPI contends that Dr. Simonson’s report and testimony are admissible and will assist the trier of fact
because Dr. Simonson is eminently qualified to provide
his expert opinions and because his opinions are relevant
and reliable based upon his specialized knowledge. (Doc.
96 at 2.) JDPI argues that its dilution expert is not required to quantify findings through prescribed
“scientific” methodology, rather, his conclusions may be
based on his specialized knowledge and principles that are
accepted within his relevant area of expertise. (Id. at 2-3
(citing Hangarter v. Provident Life & Acc. Ins. Co., 373
F.3d 998, 1017 (9th Cir. 2004) (stating that the Daubert
factors (peer review, publication, error rate, etc.) are not

90a
applicable to expert testimony whose reliability depends
heavily on the knowledge and experience of the expert,
rather than the methodology or theory behind it).)
In opposition to Dr. Simonson’s exclusion, JDPI further cites Visa Int’l Serv. Ass’n v. JSL Corp., No. CV 01294, 2006 WL 3248394, at *3-4 (D. Nev. Nov. 7, 2006), in
which the Nevada District Court admitted Dr. Itamar Simonson as a dilution expert and allowed his expert
testimony based on his presentation of “specialized
knowledge evidence” rather than scientific evidence.3
The Court will deny VIP’s motion to exclude Dr. Simonson and allow the admissibility of Dr. Simonson’s
report and his expert testimony to assist the trier of fact.
Rule 702 is to be applied with a liberal thrust favoring admission. See Messick v. Novartis Pharm. Corp., 747 F.3d
1193, 1196 (9th Cir. 2014).
Under Daubert, the Court is required to maintain a
gatekeeping role regarding all forms of expert testimony,
not just scientific testimony. See White v. Ford Motor
Co., 312 F.3d 998, 1007 (9th Cir. 2002). With regard to
non-scientific testimony, the Court is required to make
some kind of reliability determination to fulfill its gatekeeping function. See Hangarter, 373 F.3d at 1018.
Under United States v. Hankey, 203 F.3d 1160, 1169 (9th
Cir. 2000), the court admitted expert testimony on gang
behavior based on the expert’s extensive personal
knowledge of street gangs. In exercising its gatekeeping
function regarding expert specialized knowledge cases,

The Visa court found it uncontested that no scientific method
exists for determining whether actual dilution of a trademark occurred. Id. at *3.
3

91a
the Hankey court set forth six factors to evaluate in determining admissibility: (1) whether the opinion is based
on scientific, technical, or other specialized knowledge;
(2) whether the opinion would assist the trier of fact in understanding the evidence or determining a fact in issue;
(3) whether the expert has the appropriate qualifications
to render the opinion; (4) whether the testimony is relevant and reliable; (5) whether the methodology or
technique used fits the conclusions; and (6) whether the
opinion’s probative value is substantially outweighed by
the risk of unfair prejudice, confusion of issues, or undue
consumption of time.
Dr. Simonson is an recognized expert in consumer behavior. In Visa, the court concluded that Dr. Simonson’s
opinion as an expert would not be excluded based on the
following:
Dr. Simonson, himself, is the Sebastian S.
Kresge Professor of Marketing at the Stanford University Graduate School of
Business and a recognized expert on consumer behavior. He has won multiple
awards for his scholarship and research in
the fields of marketing and consumer behavior. He relied on surveys conducted by
Visa in 2000, his own validation survey,
studies of on-line payments from 2000 to
2001, and his own personal expertise to
reach the conclusions in his opinion. The
court considers these sources and Dr. Simonson’s methodology to satisfy the
requirements of reliability and proper
methodology for this type of evidence. In

92a
addition, the court considers Dr. Simonson’s qualifications sufficient to render him
an expert in the subject at hand. Finally,
the court does not see any prejudice arising
out of the use of Dr. Simonson’s opinion and
therefore finds that the probative value of
Dr. Simonson’s opinion is not substantially
outweighed by the potential for prejudice,
confusion of the issues or undue consumption of time.
Visa, 2006 WL 3248394, at *3-4.
The Court finds that Dr. Simonson’s opinions regarding consumer behavior are not technical and therefore his
report and testimony can be found reliable based on his
knowledge and experience alone. The Court does not
agree that post-Daubert expert opinion requires the performance of surveys, focus groups, studies or other real
world tests or that Daubert would preclude an expert
from applying his expertise to the facts of the case. Experience, training and education may provide a sufficient
foundation for an expert’s testimony. See Hangarter, 373
F.3d at 1018.
On the basis of the foregoing, the Court will deny
VIP’s motion to exclude the report and the testimony of
JDPI’s dilution expert, Dr. Itamar Simonson.
Similarity Requirement
Next, VIP alleges that JDPI cannot show that the VIP
Product is sufficiently similar to the Jack Daniel’s trade
dress. (Doc. 110 at 13.) According to VIP, similarity must
be considered in light of how consumers will encounter the
respective products in the marketplace, as opposed to a
mere side-by-side comparison of the trade dress. (Id.) In

93a
support, VIP cites lack of similarity due to: (1) the VIP
Product uses the name “Bad Spaniels” in place of the
“Jack Daniel’s” name; (2) the VIP Product uses “The Old
No. 2” in place of JDPI’s “Old No. 7” slogan; (3) VIP has
added its SILLY SQUEAKERS® brand name to prominent locations on the VIP Product hangtag; and (4) VIP
has added different design elements and omitted several
key components to the VIP trade dress, citing Apple, Inc.
v. Samsung Elecs. Co., 920 F. Supp. 2d 1116, 1128–29
(N.D. Cal. 2013) (holding that the parties’ trade dresses
were not sufficiently similar because the phones varied in
appearance, and defendant’s trade dress was missing key
features of plaintiff’s trade dress—this weighed heavier
than expert testimony claiming that defendant’s phone
was likely to dilute; the jury’s findings on non-dilution was
not against the clear weight of the evidence). (Id.) Finally, VIP alleges a lack of similarity because VIP sells its
Product in a completely different market than Jack Daniel’s whiskey. (Id.)
JDPI responds that prior to the TDRA, a party had to
prove that the famous mark and the accused mark were
identical or nearly identical when bringing allegations of
dilution, (Doc. 142 at 22, (citing Welles, 279 F.3d at 806).)
Quoting Levi Strauss & Co. v. Abercrombie & Fitch Trading Co., 633 F.3d 1158, 1159 (9th Cir. 2011), “the ‘identical
or nearly identical’ standard did not survive Congress’s
enactment of the TDRA.” Now a party only must show
“similarity” between the famous mark and the accused
mark. (Id.)
According to JDPI, similarity or lack of similarity is a
highly fact-specific inquiry rarely found as a matter of
law. (Id. (citing Nordstrom, 2013 WL 1196948, at *14
(denying Nordstrom a preliminary injunction as a matter

94a
of law due to improbability of success on its dilution by
tarnishment claim)); Apple, Inc., 920 F. Supp. 2d at 1131
(denial of post-trial motion for judgment as a matter of
law seeking to overturn jury finding of no dilution).) Thus,
JDPI contends that under the TDRA it is for the factfinder, not for the Court as a matter of law, to determine
the fact-specific issue of similarity. (Id. at 23.)
Regarding the differences that VIP alleges between
its Bad Spaniels toy and the Jack Daniel’s trade dress,
JDPI contends that rather than focusing on the discrete
differences between the products, the focus is on how a
consumer would see their trade dresses as a whole. (Id.
at 22-23.) As a whole, JDPI argues that a reasonable trier
of fact could find that the VIP product and Jack Daniel’s
trade dress meet the requisite similarity, an “association
arising from the similarity between a mark or trade name
and a famous mark. . . .” (Id. at 23 (quoting 15 U.S.C.
§ 1125(c)(2)(C)).)
Initially, the Court notes that under the TDRA, a
party only must show “similarity,” not substantial similarity or nearly identical, between the famous mark and the
accused mark. Levi Strauss, 633 F.3d at 1159, 1172. However, the Ninth Circuit has not issued its guidance by
providing a model jury instruction for the “similarity”
standard in dilution by tarnishment claims.
At this stage, the Court will not rule as a matter of law
that the products are not similar based upon the statutory
dilution standards. Based on the factors stated by the
parties, a reasonable trier of fact could find that the VIP
product and Jack Daniel’s trade dress meet the requisite
similarity standard for dilution, an “association arising
from the similarity between a mark or trade name and a

95a
famous mark. . . .”
§ 1125(c)(2)(C)).)

(Id. at 23 (quoting 15 U.S.C.

Reputational Harm
VIP alleges that dilution by tarnishment “generally
arises when the plaintiff’s trademark is linked to products
of shoddy quality, or is portrayed in an unwholesome or
unsavory context likely to evoke unflattering thoughts
about the owner’s product.” (Doc. 110 at 14 (quoting
Nordstrom, 2013 WL 1196948, at *11).) In evaluating
likelihood of harm, VIP contends that “[c]onsiderations
such as complaints, reduction in sales, loss of customers,
and negative press are all relevant to the overall determination.” (Id. (quoting Nordstrom, 2013 WL 1196948, at
*13; see also Starbucks Corp. v. Wolfe’s Borough Coffee,
Inc., 588 F.3d 97, 110 (2d Cir. 2009) (stating that plaintiff
failed to show likelihood of dilution by tarnishment because it did not show how “coffee named either ‘Mister
Charbucks’ or ‘Charbucks Blend’ would affect the positive
impressions about the coffee sold by Starbucks).
In support, VIP alleges that its expert, Dr. Bruce Silverman, arranged several focus groups to test consumer
reactions to the VIP Product and that his study revealed
that none of the test subjects reacted negatively to the
VIP product. (Doc. 110 at 14.) VIP further contends that
JDPI cannot rebut Dr. Silverman’s study because it has
not disclosed any evidence of actual consumer reactions to
the VIP Product. (Id. at 14-15.)
In response, JDPI contends that its dilution expert,
Dr. Itamar Simonson, his expert report and testimony details how the VIP product tarnished JDPI’s product.
(Doc. 142 at 24.) JDPI further contends that such expert
evidence of alleged tarnishment is sufficient to preclude

96a
summary judgment. (Id. (citing Gucci Am., Inc. v. Guess?,
Inc., 843 F. Supp. 2d 412, 439 (S.D.N.Y. 2012)).) According to JDPI, the credibility of the parties’ respective
positions is for the trier of fact to assess at trial. After
drawing all reasonable factual inferences in favor of JDPI,
JDPI contends that summary judgment cannot be
granted against it on this issue. Matsushita, 475 U.S. at
587.
The Court finds that summary judgment on this issue
is precluded. Both parties will present expert opinions
and testimony on the issue of whether the VIP product
tarnished the JDPI product. VIP will have its expert,
Bruce Silverman, and JDPI will have its expert, Itamar
Simonson, present their evidence. It will be up to the trier
of fact to assess and resolve the facts on this issue.
IV. JDPI’s Motion for Partial Summary Judgment
As to Claim 1 of VIP’s Amended Complaint, JDPI
leaves for trial the ultimate finding of whether VIP’s alleged parody infringes or dilutes the Jack Daniel’s
trademarks and trade dress. (Doc. 101 at 7.) Jack Daniel’s trade dress and the trademark is shown in part by
PTO Trademark Registration No. 4,106,178. (See Doc. 12
at 7 ¶ 11.) JDPI moves for summary judgment on VIP’s
second and third claim. (Doc. 101 at 6.) As to VIP’s second claim, JDPI contests VIP’s complaint that Jack
Daniel’s trade dress and the trademarks are not entitled
to protection because they are functional and non-distinctive. (Id.) As to VIP’s third claim, based on the same
arguments as in Claim 2, JDPI contests VIP’s cancellation argument for JDPI’s PTO Trademark Registration
No. 4,106,178. (Id.)

97a
JDPI alleges that its protectable trade dress consists
of a combination of a square bottle with a ribbed neck, a
black cap, a black neck wrap closure with white printing
bearing the OLD NO. 7 mark and a black front label with
white printing and a filigreed border bearing the JACK
DANIEL’S mark depicted in arched lettering at the top
of the label, the OLD NO. 7 mark contained within a filigreed oval design in the middle portion of the label
beneath the JACK DANIEL’S mark and the words “Tennessee Sour Mash Whiskey” in the lower portion of the
label with the word “Tennessee” depicted in script. (Doc.
101 at 9.) JDPI states that the Jack Daniel’s Trade Dress
is covered, in part, by a PTO registration (No. 4,106,178)
for the three-dimensional configuration of a square shape
bottle container with embossed “Jack Daniel” signature
for distilled spirits. (Doc. 12 at 7 ¶ 11.)
Distinctiveness and Functionality
In VIP’s motion for summary judgment, the Court set
forth the parties’ arguments as to whether the Jack Daniel’s trade dress and bottle design are distinctive and
whether they are non-functional. (Supra at 11-18.) The
Court then resolved the issues finding that Jack Daniel’s
trade dress and bottle design have acquired distinctiveness through secondary meaning, and that Jack Daniel’s
trade dress and bottle design are non-functional both
from a utilitarian analysis and an aesthetic analysis. (Supra at 11-18.) As to lack of confusion in the marketplace,
VIP did not argue this element as part of its summary
judgment motion and thus its resolution is left for the
trier-of-fact at trial.
In JDPI’s motion for partial summary judgment on
these same issues, the non-movant VIP may avoid summary judgment if the pleadings and supporting

98a
documents, viewed in the light most favorable to VIP, the
nonmoving party, show that there is a genuine issue as to
any material fact such that JDPI would not be entitled to
judgment as a matter of law.
As to VIP’s Claim 2 in its Amended Complaint, the
Court has reviewed VIP’s response to JDPI’s motion for
partial summary judgment on this claim and finds that
VIP has made the same legal arguments as to acquired
distinctiveness, utilitarian functionality, and aesthetic
functionality that the Court previously considered in
VIP’s motion for summary judgment. (See Doc. 147 at 724.) Therefore, the Court finds that VIP may not avoid
summary judgment on the Court’s earlier findings that
Jack Daniel’s trade dress and bottle design have acquired
distinctiveness through secondary meaning, and that Jack
Daniel’s trade dress and bottle design are non-functional
both from a utilitarian functional analysis and an aesthetic
functional analysis.
Cancellation of Registration
As to VIP’s third claim, based on the same arguments
that VIP raised in Claim 2, JDPI contests VIP’s cancellation argument against JDPI’s PTO Trademark
Registration No. 4,106,178 (the “’178 Registration”) (Doc.
101 at 25-35 (discussing the JDPI trademark shown in
Doc. 12 at 5 ¶ 11).)
JDPI contends that the ’178 Registration is prima facie evidence of a trademark’s validity, shifting the burden
from the registrant to the challenger. See 15 U.S.C. §§
1057(b); 1115(a); see, e.g., Zobmondo Entm’t, LLC v.
Falls Media, LLC, 602 F.3d 1108, 1114 (9th Cir. 2010)
(stating that a “federal registration provides ‘prima facie
evidence’ of the mark’s validity and entitles the plaintiff to

99a
a ‘strong presumption’ that the mark is a protectable
mark”). According to JDPI, the PTO issued the ’178 Registration without requiring JDPI to prove the
distinctiveness of the mark which creates a presumption
that the mark is inherently distinctive. See Zobmondo,
602 F.3d at 1114. JDPI further contends that the ’178
Registration creates a presumption that the mark is nonfunctional. Talking Rain, 349 F.3d at 603. “[T]he presumption of validity is a strong one and the burden on the
defendant necessary to overcome that presumption at
summary judgment is heavy.” Zobmondo, 602 F.3d at
1115.
In support of distinctiveness, JDPI relies on the testimony of VIP’s expert, John Howard, who testified that
the shape of the Jack Daniel’s bottle “is part of a marketing program to make the bottle distinctive from
competitors,” which has succeeded because the bottle was
“very distinctive”; that the bottle has become a “classic
design” for whiskey; and that the bottle shape is more
eyecatching than the “Jack Daniel” signature and is what
does the most to identify the product as coming from Jack
Daniel’s. (Doc. 104-4 at 8-9, 15-16, 64.) Therefore, because VIP’s own expert admitted that the mark is
distinctive, a reasonable trier of fact could only find that
the ’178 Registration is distinctive. (Doc. 101 at 26.)
In support of a lack of functionality, utilitarian and
aesthetic, JDPI presents its previous arguments, and
these arguments need not be restated again here. (Id. at
26-35.)
VIP contends that it has sufficient evidence to rebut
the presumption of validity, citing Talking Rain, 349 F.3d
at 603 (stating that once the presumption of validity afforded to a registered trademark has been rebutted, mere

100a
registration does not enable a trademark holder to survive summary judgment). (Doc. 147 at 24-25.)
In support of a lack of distinctiveness, VIP argues that
the bottle design of the ’178 Registration amounts to ordinary geometric shaped packaging that is widely used in
the market, and therefore it is non-distinctive and protectable only upon proof of secondary meaning. (Id. at 25.)
As to distinctiveness, the Court reiterates that the
presumption of validity of a trademark registration is a
strong one and the burden on the defendant necessary to
overcome that presumption at summary judgment is
heavy. See Zobmondo, 602 F.3d at 1115. The Court finds
that VIP has failed to overcome that presumption. First,
and foremost, the ’178 Registration includes the embossed signature, “Jack Daniel.” As the Court has
already concluded, the Jack Daniel’s name is decidedly famous, and produces a distinctiveness on its own.
Moreover, VIP’s own expert, John Howard, also conceded
that the ’178 Registration was distinctive. (Doc. 104-4 at
8-9, 15-16, 64.)
Next, as to functionality, both utilitarian and aesthetic,
both JDPI and VIP have restated a number of the functionality arguments that the Court has already considered
and need not be repeated again here. (See Doc. 101 at 2635 and Doc. 147 at 26-27.)
The Court again finds that VIP has failed to rebut the
validity of the ’178 Registration as it pertains to functionality, both utilitarian and aesthetic. The Court has
already found that the bottle design is not functional. (See
supra at 15-18.)
In conclusion, the Court finds that VIP has failed to
rebut the validity of the ’178 Registration. Therefore, the

101a
Court will not invalidate the ’178 Registration by directing
the Commissioner of Patents and Trademarks to cancel
JDPI’s federal trademark registration No. 4,106,178.
VIP’s Motion to Strike
Pursuant to Fed. R. Civ. P. 37, VIP moves to exclude
the declaration submitted by JDPI in support of its Opposition to Motion to Exclude Testimony of Defendant’s
Expert Itamar Simonson (Doc. 96) and certain evidence
that JDPI submitted in support of its Motion for Partial
Summary Judgment (Doc. 101). VIP lists the evidence as
follows. The Declaration of Itamar Simonson in Support
of Defendant’s Opposition to Plaintiff’s Motion to Exclude
Testimony of Itamar Simonson (“Simonson Declaration”)
(Doc. 97-1) and the Declaration of Phillip Epps in Support
of JDPI’s Motion for Partial Summary Judgment (“Epps
Declaration”) (Doc. 105). VIP alleges that both contain
untimely disclosures, either because they are information
not previously disclosed despite interrogatories and requests for production of documents that sought disclosure
during the discovery period, or because they were improperly submitted after the discovery cut-off date. (Doc.
133.)
In response, JDPI contends that VIP’s motion to
strike should be denied for the simple reason that it was
brought in violation of the local rules. (Doc. 139.) According to JDPI, LRCiv 7.2(m)(2) is clear that a party may not
file a separate motion to strike evidence supporting a written motion.
The Court finds that VIP’s motion to strike does not
comply with the Local Rules and will be denied. LRCiv
7.2(m)(2) provides, as follows:

102a
Objections to Admission of Evidence on
Written Motions. An objection to (and any
argument regarding) the admissibility of
evidence offered in support of or opposition
to a motion must be presented in the objecting party’s response or reply memorandum
and not in a separate motion to strike or
other separate filing.
LRCiv 7.2(m)(2). The purpose of the Local Rule is to require unitary briefs, including objections to evidence and
to the propriety of arguments, within the page limits established by the Court. See Pruett v. Arizona, 600 F.
Supp. 2d 1065, 1074 (D. Ariz. 2009). “Litigants may not
divide their briefs and multiply their page limits by styling part of the argument as a separate motion to strike.”
Id. VIP violated and thus disregarded the purpose of
LRCiv 7.2(m)(2) by filing a separate motion to strike; its
motion to strike will be denied.
CONCLUSION
Accordingly, on the basis of the foregoing,
IT IS HEREBY ORDERED granting Defendant’s
motion for partial summary judgment. (Doc. 101.)
IT IS FURTHER ORDERED denying Plaintiff’s motion for summary judgment. (Doc. 110.)
IT IS FURTHER ORDERED denying Plaintiff’s motion to exclude the testimony of Defendant’s expert, Dr.
Itamar Simonson. (Doc. 92.)
IT IS FURTHER ORDERED denying Plaintiff’s motion to exclude Defendant’s supplemental declaration of
Dr. Itamar Simonson and evidence offered by Phillip
Epps. (Doc. 133.)

103a
IT IS FURTHER ORDERED denying as moot Plaintiff’s motion for clarification. (Doc. 88.) Prior to trial, at
the time the parties file their respective motions in limine,
they may argue the disputed admissibility of documentary evidence that each party would present at trial.
IT IS FURTHER ORDERED denying as moot the
parties’ stipulated motion to file documents under seal.
(Doc. 152.) In resolving the parties’ dispositive motions,
the Court only utilized the redacted portions of the referenced documents; it was not necessary for the Court to
review and consider the limited sealed portion of these
documents that were lodged under seal. The Clerk of
Court shall maintain as lodged under seal Doc. 153 and
Doc. 154. At trial, the parties must keep in mind that referencing a confidential fact or a confidential document will
in fact reveal it as a matter of course.
IT IS FURTHER ORDERED denying as moot Defendant’s motion to seal. (Doc. 162.) The parties did not
reference nor did the Court consider any of these documents during resolution of the dispositive motions. The
Clerk of Court shall maintain as lodged under seal Doc.
119, Doc. 119-1, and Doc. 127. At trial, the parties must
keep in mind that referencing a confidential fact or a confidential document will in fact reveal it as a matter of
course.
IT IS FURTHER ORDERED setting this matter for
a status hearing on Wednesday, October 26, 2016, at 2:00
p.m., in Courtroom 401, 401 West Washington Street,
Phoenix, AZ before Senior Judge Stephen M. McNamee.
DATED this 27th day of September, 2016.

104a
/s/Stephen M. McNamee
Stephen M. McNamee
Senior United States District Judge

105a
APPENDIX F

106a

107a

108a

109a

110a

111a
APPENDIX G
STATUTORY PROVISIONS INVOLVED
Section 43(a) of the Lanham Act, 15 U.S.C. § 1125(a),
entitled “Civil Action,” provides:
(1) Any person who, on or in connection with any
goods or services, or any container for goods, uses
in commerce any word, term, name, symbol, or
device, or any combination thereof, or any false
designation of origin, false or misleading description of fact, or false or misleading representation
of fact, which—
(A) is likely to cause confusion, or to cause
mistake, or to deceive as to the affiliation,
connection, or association of such person with
another person, or as to the origin, sponsorship, or approval of his or her goods, services,
or commercial activities by another person,
or
(B) in commercial advertising or promotion,
misrepresents the nature, characteristics,
qualities, or geographic origin of his or her or
another person’s goods, services, or commercial activities,
shall be liable in a civil action by any person who
believes that he or she is or is likely to be damaged by such act.
(2) As used in this subsection, the term “any person” includes any State, instrumentality of a State
or employee of a State or instrumentality of a
State acting in his or her official capacity. Any
State, and any such instrumentality, officer, or
employee, shall be subject to the provisions of this

112a
chapter in the same manner and to the same extent as any nongovernmental entity.
(3) In a civil action for trade dress infringement
under this chapter for trade dress not registered
on the principal register, the person who asserts
trade dress protection has the burden of proving
that the matter sought to be protected is not functional.
Section 43(c) of the Lanham Act, 15 U.S.C. § 1125(c),
entitled “Dilution by Blurring; Dilution by Tarnishment,”
provides:
(1) INJUNCTIVE RELIEF. Subject to the principles of equity, the owner of a famous mark that is
distinctive, inherently or through acquired distinctiveness, shall be entitled to an injunction
against another person who, at any time after the
owner’s mark has become famous, commences
use of a mark or trade name in commerce that is
likely to cause dilution by blurring or dilution by
tarnishment of the famous mark, regardless of
the presence or absence of actual or likely confusion, of competition, or of actual economic injury.
(2) DEFINITIONS.
(A) For purposes of paragraph (1), a mark is
famous if it is widely recognized by the general consuming public of the United States as
a designation of source of the goods or services of the mark’s owner. In determining
whether a mark possesses the requisite degree of recognition, the court may consider all
relevant factors, including the following:

113a
(i) The duration, extent, and geographic
reach of advertising and publicity of the
mark, whether advertised or publicized
by the owner or third parties.
(ii) The amount, volume, and geographic
extent of sales of goods or services offered under the mark.
(iii) The extent of actual recognition of
the mark.
(iv) Whether the mark was registered
under the Act of March 3, 1881, or the Act
of February 20, 1905, or on the principal
register.
(B) For purposes of paragraph (1), “dilution
by blurring” is association arising from the
similarity between a mark or trade name and
a famous mark that impairs the distinctiveness of the famous mark. In determining
whether a mark or trade name is likely to
cause dilution by blurring, the court may consider all relevant factors, including the
following:
(i) The degree of similarity between the
mark or trade name and the famous
mark.
(ii) The degree of inherent or acquired
distinctiveness of the famous mark.
(iii) The extent to which the owner of the
famous mark is engaging in substantially
exclusive use of the mark.
(iv) The degree of recognition of the famous mark.

114a
(v) Whether the user of the mark or
trade name intended to create an association with the famous mark.
(vi) Any actual association between the
mark or trade name and the famous
mark.
(C) For purposes of paragraph (1), “dilution
by tarnishment” is association arising from
the similarity between a mark or trade name
and a famous mark that harms the reputation
of the famous mark.
(3) EXCLUSIONS. The following shall not be actionable as dilution by blurring or dilution by
tarnishment under this subsection:
(A) Any fair use, including a nominative or
descriptive fair use, or facilitation of such fair
use, of a famous mark by another person
other than as a designation of source for the
person’s own goods or services, including use
in connection with—
(i) advertising or promotion that permits
consumers to compare goods or services;
or
(ii) identifying and parodying, criticizing,
or commenting upon the famous mark
owner or the goods or services of the famous mark owner.
(B) All forms of news reporting and news
commentary.
(C) Any noncommercial use of a mark.

115a
(4) BURDEN OF PROOF. In a civil action for trade
dress dilution under this chapter for trade dress
not registered on the principal register, the person who asserts trade dress protection has the
burden of proving that—
(A) the claimed trade dress, taken as a whole,
is not functional and is famous; and
(B) if the claimed trade dress includes any
mark or marks registered on the principal
register, the unregistered matter, taken as a
whole, is famous separate and apart from any
fame of such registered marks.
(5) ADDITIONAL REMEDIES. In an action brought
under this subsection, the owner of the famous
mark shall be entitled to injunctive relief as set
forth in section 1116 of this title. The owner of the
famous mark shall also be entitled to the remedies
set forth in sections 1117(a) and 1118 of this title,
subject to the discretion of the court and the principles of equity if—
(A) the mark or trade name that is likely to
cause dilution by blurring or dilution by tarnishment was first used in commerce by the
person against whom the injunction is sought
after October 6, 2006; and
(B) in a claim arising under this subsection—
(i) by reason of dilution by blurring, the
person against whom the injunction is
sought willfully intended to trade on the
recognition of the famous mark; or
(ii) by reason of dilution by tarnishment,
the person against whom the injunction is

116a
sought willfully intended to harm the
reputation of the famous mark.
(6) OWNERSHIP OF VALID REGISTRATION A COMPLETE BAR TO ACTION. The ownership by a person

of a valid registration under the Act of March 3,
1881, or the Act of February 20, 1905, or on the
principal register under this chapter shall be a
complete bar to an action against that person,
with respect to that mark, that—
(A) is brought by another person under the
common law or a statute of a State; and
(B)
(i) seeks to prevent dilution by blurring
or dilution by tarnishment; or
(ii) asserts any claim of actual or likely
damage or harm to the distinctiveness or
reputation of a mark, label, or form of advertisement.

(7) SAVINGS CLAUSE. Nothing in this subsection
shall be construed to impair, modify, or supersede
the applicability of the patent laws of the United
States.

